                                 OFFICE OF
                          THE INSPECTOR GENERAL


                              U.S. NUCLEAR
                         REGULATORY COMMISSION


                            Independent Auditors' Report and
                               Principal Statements for the
                            Year Ended September 30, 2000

                            OIG-01 -A-06    March 1, 2001




                            AUDIT REPORT




                                                                                         I
F.



I
I.
     All publicly available OIG reports (including this report) are accessible through
                                     NRC's website at:
                           http://www.nrc.gov/NRC/OIG/index.html
                 '         "UNITED                        STATES
C,         •NUCLEAR                            REGULATORY COMMISSION
-    ,               ,WASHINGTON,                         D.C. 20555-0001




                                                       March 1, 2001
OFFICE OF THE
INSPECTOR GENERAL




         MEMORANDUM TO:                 Chairman Meserve



         FROM:                          Hubert T. Bell
                                        Inspector General


         SUBJECT:                       RESULTS OF THE AUDIT OF U.S. NUCLEAR REGULATORY
                                        COMMISSION'S FISCAL YEAR 2000 FINANCIAL STATEMENTS
                                        (OIG-01-A-06)


         Attached is the independent auditors' report on the U.S. Nuclear Regulatory Commission's
         (NRC) Fiscal Year 2000 financial statements. The Chief Financial Officers Act requires the
         Office of the Inspector General (OIG) to annually audit NRC's Principal Financial Statements.
         The report contains: (1) the principal statements and the auditors' opinion on those
         statements; (2) the auditors' opinion on management's assertion about the effectiveness of
         internal controls; and (3) a report on NRC's compliance with laws and regulations. Written
         comments were obtained from the Chief Financial Officer (CFO) and are included as an
         appendix to the independent auditors' report.

         Audit Results

         The independent auditors issued an unqualified opinion on the balance sheet, the statements
         of changes in net position, net cost, budgetary resources, and financing.

         In the opinion on management's assertion about the effectiveness of internal controls, the
         auditors concluded that management's assertion is not fairly stated. The auditors reached this
         conclusion because management did not identify the lack of the following as material
         weaknesses:1 (1) managerial cost accounting; and (2) management controls for license fee
         development.

         The auditors identified one new reportable condition and closed four prior-year reportable
         conditions. The new condition concerns inadequate documentation of debt collection
         activities.

                         OIG's annual assessment of NRC's implementation of the Federal Manager's Financial
                         Integrity Act will also report the same issues as material weaknesses. OIG Report
                         OIG-01-A-07, Review of NRC's Implementation of the FederalManager'sFinancial
                         Integrity Act for Fiscal Year 2000, February 23, 2001.
Chairman Meserve                                 -2-


The report on NRC's compliance with laws and regulations disclosed three noncompliances.
The first is that NRC did not comply with the Debt Collection Improvement Act of 1996. The
second is that NRC's 10 CFR Part 170 license fee rates are not based on full cost, and the
third is that managerial cost accounting was not implemented, as required. Issue three is
considered a substantial noncompliance with the Federal Financial Management Improvement
Act of 1996 (FFMIA).

The prior year's reportable condition relating to business continuity plans for the general ledger
system remains in substantial noncompliance with FFMIA. However, NRC was dependent on
the Department of the Treasury to resolve this condition. During FY 2001, NRC plans to
transfer its accounting system to a new provider. Tests of compliance with selected provisions
of other laws and regulations disclosed no other instances of noncompliance.

PerformanceReporting

 Office of Management and Budget Bulletin No. 01-02, Audit Requirements for Federal
 FinancialStatements, requires OIG to "obtain an understanding of the components of internal
 control relating to the existence and completeness assertions relevant to the performance
 measures included in the MD&A [Management's Discussion and Analysis]." The Bulletin
 states that the objective of this work is to report deficiencies in the design of internal control,
 rather than plan the financial statement audit. OIG recently issued a separate report on the
 validity and reliability of NRC's performance information. 2 Although the report focused on FY
.1999 performance measures and results, it noted that many efforts to improve the reliability
 (e.g. completeness, timeliness) of performance data will not be in place until after FY 2000.

Comments of the Chief FinancialOfficer

The CFO generally agreed with the auditors' recommendations and stated that corrective
action has been taken or is underway. We will follow-up on the CFO's corrective action during
FY 2001.

We appreciate NRC staffs cooperation and continued interest in improving financial
management within NRC.

Attachment: As stated

cc:     Commissioner Dicus
        Commissioner Diaz
        Commissioner McGaffigan
        Commissioner Merrifield


        2       0IG Report OIG-01-A-03, GovernmentPerformance and Results Act: Review of the
                Fiscal Year 1999 Performance Report, February 23, 2001.
cc:   R. McOsker, OCM/RAM
      B. Torres, ACMUI
      B. Garrck, ACNW
      D. Powers, ACRS
      J. Larkins, ACRS/ACNW
      P. Bollwerk III, ASLBP
      K. Cyr, OGC
      J. Cordes, Acting OCAA
      W. Travers, EDO
      S. Reiter, Acting C0O
      J. Funches, CFO
      P. Rabideau, Deputy CFO
      J. Dunn Lee, OIP
      D. Rathbun, OCA
      W. Beecher, OPA
      A. Vietti-Cook, SECY
      F. Miraglia, DEDR/OEDO
      C. Paperiello, DEDMRS/OEDO
      P. Norry, DEDM/OEDO
      J. Craig, AO/OEDO
      M. Springer, ADM
      R. Borchardt, OE
      G. Caputo, 01
      P. Bird, HR
      I. Little, SBCR
      W. Kane, NMSS
      S. Collins, NRR
      A. Thadani, RES
      P. Lohaus, OSP
      F. Congel, IRO
      H. Miller, RI
      L. Reyes, RII
      J. Dyer, RIII
      E. Merschoff, RIV
      OPA-RI
      OPA-RII
      OPA-RIII
      OPA-RIV
U.S. NUCLEAR REGULATORY
   COMMISSION




INDEPENDENT AUDITOR'S REPORT AND
PRINCIPAL STATEMENTS FOR THE
YEAR ENDED SEPTEMBER 30, 2000
                                                               CONTENTS


INDEPENDENT AUDITORS' REPORT ..............................................                                    1


PRINCIPAL STATEMENTS

        Balance Sheet ................................................................                             3

        Statem ent of Net Cost .........................................................                           4

        Statement of Changes in Net Position .............................................                         5

        Statement of Budgetary Resources                     ...............................................       6

        Statem ent of Financing             ........................................................               7

        Notes to Principal Statements                ...................................................           8

        Required Supplementary Information
               Schedule of Intragovernmental Balances ...................................                      20
                Management Discussion and Analysis .....................................                       21

REPORTS ON INTERNAL CONTROL AND COMPLIANCE WITH LAWS AND
     REGULATIONS

        Report on Management's Assertion About the Effectiveness of Internal Control ...........               32

        Independent Auditors' Report on Compliance with Laws and Regulations ...............                   40


APPENDIX

        Comments of the Chief Financial Officer
INDEPENDENT AUDITORS' REPORT
Ww/    R. NAVARRO                                                              2831 Camino Del Rio South, Suite 306
      & ASSOCIATES, INC.                                                                 San Diego, California 92108
      CERTIFIED PUBLIC ACCOUNTANTS
                                                                                                     (619) 298-8193




                                 INDEPENDENT AUDITORS' REPORT

Chairman Richard A. Meserve
U.S. Nuclear Regulatory Commission
Rockville, Maryland

We have audited the accompanying balance sheet of the U. S. Nuclear Regulatory Commission (NRC) as of
September 30, 2000, and the related statements of net cost, changes in net position, budgetary resources, and
financing for the year then ended, collectively referred to as the financial statements. These financial
statements are the responsibility of the management of NRC. Our responsibility is to express an opinion on
these financial statements based on our audit.

SCOPE

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America, GovernmentAuditingStandards issued by the Comptroller General ofthe United States, and Office
of Management and Budget (OMB) Bulletin No. 01-02, Audits of FederalFinancialStatements. Those
standards require that we plan and perform the audit to obtain reasonable assurance about whether the
financial statements are free ofmaterial misstatement. An audit includes examining, on a test basis, evidence
supporting the amounts and disclosures in the financial statements. An audit also includes assessing
accounting principles used and significant estimates made by management, as well as evaluating the overall
financial statement presentation. We believe our audit provides a reasonable basis for our opinion.

MATTERS FOR EMPHASIS

Classification of Costs

OMB Bulletin 97-01, Form and Content ofAgency FinancialStatements, as amended, provides guidance to
federal agencies for presenting program costs classified by intragovernmental and public components. The
basis for classification relies on the concept of who received the benefits of the costs incurred (e.g. private
sector licensees versus federal licensees) rather than who was paid. Following the advice of OMB, NRC
classified the costs on the Statement of Net Cost using an underlying concept of who was paid.

U. S. Department of Energy Expenses

NRC's principal statements include reimbursable expenses of the U. S. Department of Energy (DOE)
National Laboratories. The NRC's Statement of Net Cost includes approximately $57.7 million of
reimbursed expenses, which represent approximately 11% of total expenses. Our audit included testing these
expenses for compliance with laws and regulations within NRC. The work place with DOE is under the
auspices of a Memorandum of Understanding between NRC and DOE. The examination of DOE National
Laboratories for compliance with laws and regulations is DOE's responsibility. This responsibility was
further clarified by a memorandum of the General Accounting Office's (GAO) Assistant General Counsel,
dated Mach 6, 1995, where he opined that "...DOE's inability to assure that its contractors' costs [National
Laboratories] are legal and proper.. .does not compel a conclusion that NRC has failed to comply with laws
and regulations." DOE also has the cognizant responsibility to assure audit resolution and should provide
the results of its audits to NRC.

OPINION

In our opinion, the financial statements referred to in the first paragraph, present fairly, in all material
respects, the financial position of NRC as of September 30, 2000, and its net cost, changes in net position,
budgetary resources, and reconciliation of budgetary obligations to net cost for the year then ended in
conformity with accounting principles generally accepted in the United States of America.

Our audit was conducted for the purpose of forming an opinion on the financial statements taken as a whole.
The required supplementary information on pages 21 through 31 is not a required part of the financial
statements but is information required by OMB Bulletin No. 01-02, Audit RequirementsforFederalFinancial
Statements, and by Statement of Federal Financial Accounting Standards No. 15, Management'sDiscussion
and Analysis. This supplementary information is the responsibility of the NRC's management. We have
applied certain limited procedures, which consisted principally of inquiries of management regarding the
methods of measurement and presentation of the supplementary information. However, we did not audit such
information and we do not express an opinion on it.

In accordance with Government Auditing Standardsissued by the Comptroller General of the United States
and OMB Bulletin No. 01-02, Audit Requirementsfor FederalStatements, we have also issued our report
dated February 8, 2001, on our consideration of NRC's internal control over financial reporting and our tests
of its compliance with certain provisions of laws, regulations, contracts, and grants. That report is an integral
part of an engagement to perform an audit in accordance with GovernmentAuditing Standards and should
be read in conjunction with this report in considering the results of our audit.




February 8, 2001




                                                        2
PRINCIPAL STATEMENTS
                                                                                    PrincipalStatements

                                      BALANCE SHEET
                                    As of September 30, 2000
                                           (in dollars)



Assets
   Intragovernmental assets:
       Fund balances with Treasury (Note 2)                               $138,740,086
       Accounts receivable (Note 3)                                           1,874,393
       Other                                                                  1,224,560
          Total intragovernmental assets                                   141,839,039

   Cash and other monetary assets                                                   20,000
   Accounts receivable, net (Note 3)                                            42,162,594
   Property and equipment, net (Note 5)                                         41,853,364
   Other                                                                            51,433

          Total Assets                                                    $225,926,430

Liabilities
   Intragovernmental liabilities
       Accounts payable                                                   $ 10,590,557
       Other (Notes 6 and 7)                                                50,157,465
           Total intragovemmental liabilities                               60,748,022

    Accounts payable                                                            15,859,810
    Federal employees benefits (Note 7)                                          8,230,000
    Other (Notes 6 and 7)                                                       44,937,322

          Total Liabilities                                                 129,775,154

Net Position                                                                    87,073,470
   Unexpended appropriations (Note 9)
   Cumulative results of operations (Note 10)                                    9,077,806

          Total Net Position                                                    96,151,276

          Total Liabilities and Net Position                               $225,926,430




                           The accompanying notes to the principal statements
                                  are an integral part of this statement.
                                                   3
                                                                               PrincipalStatements


                                 STATEMENT OF NET COST
                             For the year ended September 30, 2000
                                           (in dollars)



Nuclear Reactor Safety
      Intragovernmental                                  $103,796,213
      With the public                                     226,621,251
          Total                                           330,417,464
      Less earned revenue                                 390,400,624

       Net cost of Nuclear Reactor Safety                                      $(59,983,160)

Nuclear Materials Safety
      Intragovernmental                                    27,707,063
      With the public                                      73,502,935
          Total                                           101,209,998
       Less earned revenue                                 55,011,902

       Net cost of Nuclear Materials Safety                                      46,198,096

Nuclear Waste Safety
      Intragovernmental                                    14,856,560
      With the public                                      48,319,530
          Total                                            63,176,090
      Less earned revenue                                  14,547,764

       Net cost of Nuclear Waste Safety                                          48,628,326

International Nuclear Safety Support
       Intragovernmental                                     7,892,108
       With the public                                       8,033,704
           Total                                            15,925,812
       Less earned revenue                                   3,077,698
       Net cost of International Nuclear

        Safety Support                                                           12,848,114

Net Cost of Operations (Note 12)                                               $ 47,691,376




                          The accompanying notes to the principal statements
                                 are an integral part of this statement.
                                                  4
                                                                                 PrincipalStatements

                    STATEMENT OF CHANGES IN NET POSITION
                        For the year ended September 30, 2000
                                      (in dollars)



Net Cost of Operations                                                           $(47,691,376)

Financing sources other than exchange revenue
  (Note 13)

    Appropriations used                                   $ 26,120,547
    Non-exchange revenue                                       875,347
    Imputed financing                                       16,032,598
    Transfer-in                                            447,000,000
    Transfers-out                                         (447,875,347)
      Total financing sources                                                      42,153,145

Net results of operations                                                           (5,538,231)

Decrease in unexpended appropriations                                             (16,176,632)

Change in Net Position                                                            (21,714,863)

Net Position - Beginning of Period                        $116,553,292

Prior-period adjustment (Note 14)                              1,312,847

Net Position - Restated Beginning of Period                                       117,866,139

Net Position - End of Period                                                      $ 96,151,276




                            The accompanying notes to the principal statements
                                   are an integral part of this statement.
                                                    5
                                                                                    PrincipalStatements

                      STATEMENT OF BUDGETARY RESOURCES
                         For the year ended September 30, 2000
                                       (in dollars)



Budgetary Resources (Note 15)

    Budget authority                                                      $471,975,231
    Unobligated balances - beginning of period                              29,893,840
    Spending authority from offsetting collections                           5,516,691
    Adjustments                                                              8,524,924

          Total Budgetary Resources                                       $515,910,686

Status of Budgetary Resources

    Obligations incurred                                                  $485,533,580
    Unobligated balances - available                                        29,786,831
    Unobligated balances - not available                                       590,275

          Total Status of Budgetary Resources                             $515,910,686

Outlays

    Obligations incurred                                                  $485,533,580
    Less: Spending authority from offsetting
             collections and adjustments                                       (14,128,615)

          Subtotal                                                         471,404,965

    Obligated balances, net - beginning of period                              116,582,904

    Less: obligated balance, net - end of period                          (104,044,499)

          Total Outlays                                                   $483,943,370




                          The accompanying notes to the principal statements
                                 are an integral part of this statement.
                                                  6
                                                                                   PrincipalStatements

                             STATEMENT OF FINANCING
                           For the year ended September 30, 2000
                                         (in dollars)



Obligations and Nonbudgetary Resources

    Obligations incurred                                                 $485,533,580
    Less: Spending authority for offsetting
             collections and adjustments                                   (14,128,615)
    Imputed financing (Note 13)                                             16,032,598
    Transfer-in (Note 13)                                                  447,000,000
    Transfer-out (Note 13)                                                (447,000,000)
    Exchange revenues not in the budget (Note 11)                         (457,944,314)

      Total Obligations and Nonbudgetary Resources                             29,493,249

Resources Not Funding Net Cost of Operations

    Change in undelivered orders                                               12,659,897
    Capitalized costs                                                          (6,683,272)
    Financing sources that fund costs of prior periods
    Other                                                                        520,704

      Total Resources Not Funding Net Cost of Operations                        6,497,329

Costs Not Requiring Resources

    Depreciation and amortization                                               6,536,224

      Total Costs Not Requiring Resources                                       6,536,224

Financing Sources Yet to be Provided                                            5,164,574

Net Cost of Operations                                                   $ 47,691,376




                          The accompanying notes to the principal statements
                                 are an integral part of this statement.
                                                  7
                                                                                    PrincipalStatements

                            NOTES TO PRINCIPAL STATEMENTS
                                    September 30, 2000

NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

A.   Reporting Entity

     The U. S. Nuclear Regulatory Commission (NRC) is an independent regulatory agency of the Federal
     Government that was created by the U. S. Congress to regulate the Nation's civilian use of byproduct,
     source, and special nuclear materials to ensure adequate protection of the public health and safety, to
     promote the common defense and security, and to protect the environment. Its purposes are defined
     by the Energy Reorganization Act of 1974, as amended, along with the Atomic Energy Act of 1954,
     as amended, which provide the foundation for regulating the Nation's civilian use ofnuclear materials.

     The NRC FY 2000 appropriations for salaries and expenses and the Inspector General include
     approximately $19.2 million of funds derived from the Nuclear Waste Fund and $3.8 million from the
     General Fund for assistance provided to the U. S. Department of Energy (DOE) and other Federal
     agencies. In addition, $2 million was available for obligation from appropriations provided by the U. S.
     Agency for International Development for the development of nuclear safety and regulatory authorities
     in Russia, Ukraine, Kazakhstan, and Armenia for the independent oversight of nuclear reactors in these
     countries. At the beginning of FY 2000, $4 million authorized by Public Law (P.L.) 105-62 for
     FY 1998 for the licensing of a multi-purpose canister design was rescinded by P.L. 106-60 and funding
     was transferred back to the DOE. In addition, NRC's appropriation was reduced by $87,000 through
     a recission of funding in accordance with P.L. 106-113.

     The accompanying financial statements of NRC include the accounts of all funds under NRC control.
     The NRC appropriations are under budget functional classification 276, Energy Information, Policy,
     andRegulation, and departmental code 31. The transfer appropriations from: (1) the U.S. Agency for
     International Development are under budget functional classification 150, InternationalAffairs, and
     departmental code 72 and (2) the General Services Administration (GSA) is under budget functional
     classification 800, GeneralGovernment, and departmental code 47.

B.   Basis of Presentation

     These principal statements were prepared to report the financial position and results of operations of
     the NRC as required by the Chief Financial Officers Act of 1990 and the Government Management
     Reform Act of 1994. These financial statements were prepared from the books and records of the NRC
     in conformity with accounting principles generally accepted in the United States of America, the
     requirements of Office of Management and Budget (OMB) Bulletin No. 97-01, Form and Content of
     Agency FinancialStatements, technical amendments, and NRC accounting policies. These statements
     are, therefore, different from the financial reports, also prepared by the NRC pursuant to OMB
     directives, which are used to monitor and control NRC's use of budgetary resources. NRC has not
     prepared a Statement of Custodial Activity because the amounts involved are immaterial and are
     incidental to its operations and mission.

     The strategic arenas as presented on the Statement of Net Cost are based on the strategic plans and the
     FY 2000 budget structure. The budget line items for Management and Support and the Office of the
     Inspector General were allocated to strategic arenas using direct costing and cost-finding techniques
     consistent with Statement of Federal Financial Accounting Standards Number 4, ManagerialCost
     Accounting Concepts and Standardsfor the Federal Government. The NRC's four programmatic
     strategic arenas are described as follows:
                                                    8
                                                                                     PrincipalStatements

                            NOTES TO PRINCIPAL STATEMENTS
                                    September 30, 2000

           Nuclear Reactor Safety encompasses all NRC efforts to ensure that civilian nuclear power
           reactor facilities, as well as nonpower reactors, are operated in a manner that adequately protects
           public health and safety and the environment, and protects against radiological sabotage and
           theft or diversion of special nuclear materials. The NRC regulates 103 civilian nuclear power
           reactors that are licensed to operate and 17 that are undergoing decommissioning.

           Nuclear Materials Safety encompasses NRC efforts to ensure that NRC-regulation aspects of
           nuclear fuel cycle facilities and nuclear materials activities are handled in a manner that provides
           adequate protection of public health and safety. This arena encompasses more than 20,000
           specific and 100,000 general licensees that are regulated by the NRC and 31 Agreement States.

           Nuclear Waste Safety encompasses NRC's regulatory activities associated with uranium
           recovery, decommissioning, storage of spent nuclear fuel, transportation of radioactive
           materials, and disposal of radioactive wastes.

           International Nuclear Safety Support encompasses NRC's efforts of international
           cooperation to help ensure the safe, secure, and environmentally acceptable uses of nuclear
           energy. This arena includes international nuclear policy formulation, export-import licensing
           for nuclear materials and equipment, treaty implementation, international information exchange,
           international safety and safeguards assistance, and deterring nuclear proliferation. NRC's
           international activities support broad U.S. national interests, as well as the NRC's domestic
           mission.

C.   Budgets and BudgetaryAccounting

     For the past 26 years, Congress has enacted no-year appropriations which are available for obligation
     by NRC until expended. The Omnibus Budget Reconciliation Act (OBRA) of 1990, as amended,
     requires the NRC to recover approximately 100 percent of its new budget authority of $469.9 million
     by assessing fees less the amounts derived from the Nuclear Waste Fund of $19.2 million and $3.8
     million from the General Fund for regulatory review and other assistance provided to DOE and other
     Federal agencies which is excluded from license fee revenues.

D.   Basis ofAccounting

     Transactions are recorded on both an accrual accounting basis and on a budgetary basis. Under the
     accrual method, revenues are recognized when earned and expenses are recognized when a liability is
     incurred, without regard to receipt or payment of cash. Budgetary accounting facilitates compliance
     with legal constraints and control over the use of Federal funds. Interest on borrowings of the U. S.
     Treasury is not included as a cost to NRC's programs and is not included in the accompanying financial
     statements.

E.   Revenues and Other FinancingSources

     The NRC is required to offset its appropriations by the amount of revenues received during the fiscal
     year by assessing fees. The NRC assesses two types of fees to recover its budget authority: (1) fees
     assessed under 10 CFR Part 170 for licensing, inspection, and other services under the authority of the
     Independent Offices Appropriation Act of 1952 to recover the NRC's costs of providing individually
     identifiable services to specific applicants and licensees; and (2) annual fees assessed for nuclear
                                                    9
                                                                                      PrincipalStatements

                            NOTES TO PRINCIPAL STATEMENTS
                                    September 30, 2000

     facilities and materials licensees under 10 CFR Part 171. All fees, with the exception of civil penalties,
     are exchange revenues in accordance with Statement of Federal Financial Accounting Standards
     Number 7, Accounting for Revenue and Other FinancingSources and Conceptsfor Reconciling
     Budgetary and FinancialAccounting.

     Licensing fees and fees for inspections and other services, assessed in accordance with 10 CFR
     Parts 170 and 171, are recognized as revenue when earned. The NRC classifies revenues as either
     exchange revenue or non-exchange revenue. Exchange revenues are those that are derived from
     transactions in which both the Government and the public receive value. These revenues are presented
     on the Statement of Net Cost and serve to reduce the reported cost of NRC's programs.

     Non-exchange revenues are derived from the Government's sovereign right to demand payment,
     including fines for violation of laws or regulations. These financing sources do not reduce the cost of
     NRC's programs and are reported on the Statement of Changes in Net Position. Miscellaneous receipts
     collected by NRC, including interest on delinquent debt, late payment penalties, Freedom of
     Information Act fees, and indemnity fees, are not available to NRC for obligation or expenditure.
     These receipts must be transferred to the U. S. Treasury when collected.

     For accounting purposes, appropriations are recognized as financing sources (appropriations used) at
     the time expenses are accrued. At the end of the fiscal year, appropriations recognized are reduced by
     the amount of assessed fees collected during the fiscal year to the extent of new budget authority for
     the year. Collections which exceed the new budget authority are held to offset subsequent years'
     appropriations. Appropriations expended for property and equipment are recognized as expenses when
     the asset is consumed in operations (depreciation and amortization). Appropriations used do not
     include: (1) expenses incurred but not yet funded by Congress, such as workers' compensation benefits
     and annual leave expenses; and (2) expenses which are paid by other Federal agencies, such as
     retirement benefits.

F.   Fund Balances with Treasury and Cash and Other Monetary Assets

     The NRC's cash receipts and disbursements are processed by the U.S. Treasury. The fund balances
     with the U.S. Treasury and cash are primarily appropriated funds that are available to pay current
     liabilities and to finance authorized purchase commitments. Funds with Treasury represent NRC's right
     to draw on the U. S. Treasury for allowable expenditures. All amounts are available to NRC for current
     use. Cash balances held outside the U.S. Treasury are not material.

G.   Accounts Receivable

     The amounts due for receivables, except those due from Federal agencies, are stated net of an
     allowance for uncollectible accounts. Receivables from Federal agencies are expected to be collected;
     therefore, there is no allowance for uncollectible accounts. The estimate of the allowance is based on
     an analysis of the outstanding balances and the application of estimated uncollectible percentages to
     categories of aged receivable balances.

H.   PropertyandEquipment

     Property and equipment consist primarily of typical office furnishings, nuclear reactor simulators, and
     computer hardware and software. The agency has no real property. The land and buildings in which
                                                   10
                                                                                     PrincipalStatements

                            NOTES TO PRINCIPAL STATEMENTS
                                    September 30, 2000

     NRC operates are provided by GSA, which charges NRC rent that approximates the commercial rental
     rates for similar properties.

     Property with a cost of $50,000 or more per unit and a useful life of 2 years or more is capitalized at
     cost and depreciated using the straight-line method over the useful life. Other property items are
     expensed when purchased. Normal repairs and maintenance are charged to expense as incurred.

L    Accounts Payable

     Accounts payable represent vendor invoices for services received by NRC that will be paid (liquidated)
     in the next fiscal year. Also included in these amounts are contract holdbacks on contracts which have
     not been fully closed and advances which represent collections received in advance of performing
     services under a variety of reimbursable agreements. The services will be provided and the revenue
     earned in a subsequent fiscal year.

J.   LiabilitiesNot Covered by BudgetaryResources

     Liabilities represent the amount of monies or other resources that are likely to be paid by NRC as the
     result of a transaction or event that has already occurred. No liability can be paid by NRC absent an
     appropriation. Liabilities for which an appropriation has not been enacted and for which there is no
     certainty that an appropriation will be enacted are classified as Liabilities Not Covered by Budgetary
     Resources. Also, NRC liabilities arising from sources other than contracts can be abrogated by the
     Government acting in its sovereign capacity.

K.   Contingencies

     The NRC is a party to various administrative proceedings, legal actions, environmental suits, and
     claims brought by or against it. Based on the advice of legal counsel concerning contingencies, it is
     the opinion of management that the ultimate resolution of these proceedings, actions, suits, and claims
     will not materially affect the agency's financial statements.

L.   Annual, Sick, and OtherLeave

     Annual leave is accrued as it is earned and the accrual is reduced as leave is taken. Each year, the
     balance in the accrued annual leave liability account is adjusted to reflect current pay rates. Sick leave
     and other types of nonvested leave are expensed as taken.

M.   Retirement Plans

     At the end of FY 2000 approximately 42 percent of NRC employees belong to the Civil Service
     Retirement System (CSRS) and 58 percent belong to the Federal Employees' Retirement System
     (FERS). In FY 2000, for employees in FERS, the NRC withheld 1.2 percent of base pay earnings in
     addition to Federal Insurance Contribution Act (FICA) withholdings and matched the withholding with
     a 10.7 percent contribution. The sum was transferred to the Federal Employees Retirement Fund.
     During FY 2000, for employees covered by CSRS, NRC withheld 7.4 percent of base pay earnings.
     This withholding was matched by NRC with a 8.51 percent contribution, and the sum of the
     withholding and the match was transferred to the CSRS.

                                                     11
                                                                                      PrincipalStatements

                             NOTES TO PRINCIPAL STATEMENTS
                                     September 30, 2000

     The Thrift Savings Plan (TSP) is a retirement savings and investment plan for employees covered by
     either FERS or CSRS. For employees covered by FERS, NRC automatically contributes one percent
     of base pay to their account and matches contributions up to an additional four percent. The maximum
     percentage that an employee participating in FERS may contribute is 10 percent of base pay.
     Employees covered by CSRS may contribute up to five percent of their base pay, but there is no NRC
     matching of the contribution. The maximum amount that either FERS or CSRS employees may
     contribute to the plan in a calendar year 2000 was $10,500. The sum of the employees' and NRC's
     contributions is transferred to the Federal Retirement Thrift Investment Board.

     The NRC does not report on its financial statements FERS and CSRS assets, accumulated plan benefits,
     or unfunded liabilities, if any, applicable to its employees. Reporting such amounts is the responsibility
     of the U. S. Office of Personnel Management. The portion of the current and estimated future outlays
     for CSRS not paid by NRC is, in accordance with Statement of Federal Financial Accounting Standards
     Number 5, Accounting for Liabilities of the Federal Government, included in NRC's financial
     statements as an imputed financing source.

N.   U. S. DepartmentofEnergy Charges

     Financial transactions between DOE and NRC are fully automated through the U. S. Treasury's On
     Line Payment and Collection (OPAC) System. The OPAC System allows DOE to collect amounts due
     from NRC directly from NRC's account at the U. S. Treasury for goods and/or services rendered.
     Project manager verification of goods and/or services received is subsequently accomplished through
     a system-generated voucher approval system. The vouchers are returned to the Office of the Chief
     Financial Officer documenting that the charges have been accepted. For the year ended September 30,
     2000, NRC had expenses of approximately $ 57.7 million for research conducted by the DOE National
     Laboratories.

0.   PricingPolicy

     The NRC provides goods and services to the public and other Government entities. In accordance with
     OMB Circular No. A-25, User Charges,and the Independent Offices Appropriation Act of 1952, NRC
     assesses fees under 10 CFR Part 170 for licensing and inspection activities to recover the full cost of
     providing individually identifiable services. In accordance with the Omnibus Budget Reconciliation
     Act of 1990, fees are assessed annually to licensees under 10 CFR Part 171 to recover approximately
     100 percent of new budget authority, less amounts excluded from fee recovery and those recovered
     under 10 CFR Part 170.

     The NRC's policy is to recover the full cost of goods and services provided to other Government
     entities where: (1) the services performed are not part of its statutory mission and (2) NRC has not
     received appropriations for those services. Fees for reimbursable work are assessed at the 10 CFR
     Part 170 rate with minor exceptions for programs that are nominal activities of the NRC.

P.   Use of ManagementEstimates

     The preparation of the accompanying financial statements requires management to make certain
     estimates and assumptions that directly affect the results of reported assets, liabilities, revenue, and
     expenses. Actual results could differ from these estimates.

                                                      12
                                                                                  PrincipalStatements

                            NOTES TO PRINCIPAL STATEMENTS
                                    September 30, 2000

NOTE 2. FUND BALANCES WITH TREASURY

Fund balances with the Treasury consist of the following amounts as of September 30, 2000:

            Appropriated funds:
                 Obligated                                                  $118,576,942
                 Unobligated                                                  15,824,682
                                                                             134,401,624
            Other fund types                                                   4,338,462
                                                                            $138,740,.086

The obligated and unobligated balances exclude amounts related to unfilled customer orders. Other fund
types include miscellaneous receipt accounts and budget clearing accounts.

NOTE 3. ACCOUNTS RECEIVABLE

Accounts receivable is composed of the following:

   Intragovernmental accounts receivable consists primarily of receivables and reimbursements due from
   other Federal agencies which were $1,874,393 at September 30, 2000.

   The non-Federal accounts receivable, net, is comprised of the following amounts as of September 30,
   2000:

            Materials and facilities fees - billed                           $ 5,418,605
            Materials and facilities fees - unbilled                          39,864,362
            Other                                                                359,056
                  Total accounts receivable                                   45,642,023
            Less: Allowance for uncollectible accounts                        (3,479,429)
                      Accounts receivable, net                               $42.162.594

   Other accounts receivable of $359,056 represent miscellaneous amounts due from NRC employees and
   penalties and interest due from the public.

NOTE 4. NON-ENTITY ASSETS

Included in the accounts receivable balance is $214,176 consisting of miscellaneous penalties and interest
due from the public, which, when collected, must be transferred to the U.S. Treasury.




                                                    13
                                                                                       PrincipalStatements

                              NOTES TO PRINCIPAL STATEMENTS
                                      September 30, 2000



NOTE 5. PROPERTY AND EQUIPMENT, NET

Property and equipment, net, consists of the following as of September 30, 2000:

                                                                      Accumulated
                                                                      Depreciation
                                   Service          Acquisition           and                Net Book
Fixed Assets Class                 Years              Value           Amortization              Value
Equipment                            5-8           $ 18,997,699       $(15,682,494)         $3,315,205
ADP software                          5              53,102,079        (34,990,208)          18,111,871
ADP software under development                        7,738,081                               7,738,081
Leasehold improvements               20              19,665,214          (7,072,329)         12,592,885
Leasehold improvements in progress                       95,322                                -95,322
                                                    $99,598,395                            $41,853,364
                                                                      $(57.745,03 1)

NOTE 6. OTHER LIABILITIES

Other intragovermmental liabilities as of September 30, 2000, include:

    Liability to offset net accounts receivable for fees assessed                $43,388,134
    Liability related to fees collected which will offset
      subsequent year's appropriations                                             3,172,811
    Liability to offset miscellaneous accounts receivable                             214,376
    Liability for advances from other Federal agencies                                 22,393
    Accrued worker's compensation                                                  1,520,707
    Liability for employee benefits contributions                                  1,839,044
                                                                                 $50, 157,465

The liability to offset the net accounts receivable for fees assessed represents amounts which, when collected,
will be transferred to the U. S. Treasury to offset NRC's appropriations in the year collected. The liability
to offset miscellaneous accounts receivable represents amounts which will be reverted to the U. S. Treasury
when collected.

Other liabilities as of September 30, 2000, include:

             Accrued annual leave                                                $25,626,852
             Accrued salaries                                                     14,303,335
             Contract holdbacks, advances, and other                               5,007,135
                                                                                 $44.,937322

All other liabilities, except accrued annual leave, contract holdbacks, and advances from others, are current.
Current liabilities represent amounts which are expected to be paid within the fiscal year following the
reporting date. Accrued annual leave, contract holdbacks, and advances from others may not be liquidated
in the fiscal year following the reporting date.



                                                       14
                                                                                         PrincipalStatements

                              NOTES TO PRINCIPAL STATEMENTS
                                      September 30, 2000

NOTE 7. LIABILITIES NOT COVERED BY BUDGETARY RESOURCES

Liabilities not covered by budgetary resources are not funded by current or prior years' appropriations and
assessments. Funding will be provided from future years' appropriations. As of September 30, 2000,
liabilities not covered by budgetary resources included:

Intragovernmental

Included in the $50,157,465 of other intragovernmental liabilities is $1,520,707 related to Federal Employees
Compensation Act (FECA) benefits paid by the U.S. Department of Labor (DOL) on NRC's behalf which
had not been billed or paid by NRC as of September 30, 2000.

Federal Employees Benefits

Federal employees benefits of $8,230,000 for FY 2000 represents the actuarial liability for estimated future
FECA disability benefits. The future workers' compensation estimate was generated by DOL from an
application of actuarial procedures developed to estimate the liability for FECA, which includes the expected
liability for death, disability, medical, and miscellaneous costs for approved compensation cases. The liability
was calculated using historical benefit payment patterns related to a specific incurred period to predict the
ultimate payments related to that period. These projected annual benefit payments were discounted to present
value. The interest rate assumptions utilized for discounting were 6.275 percent in year 1 and 6.300 percent
in year 2 and thereafter.

Other

Included in the $44,937,322 of other liabilities is $25,626,852 of accrued annual leave and $181,097 for the
capital lease liability. Accrued annual leave represents the amount of annual leave earned by NRC employees
but not yet taken.

NOTE 8. LEASES

A description of lease agreements as of September 30, 2000 follows:

Capital Leases

    Future payments due:
                                         Fiscal Year                           Lease Payments
                                           2001                                     $ 70,378
                                           2002                                       70,378
                                           2003                                       52,784
                                           2004 and thereafter                       _


    Total future lease payments                                                       193,540
    Less: imputed interest                                                             (12,.443)
                 Net capital lease liability                                         $1i81.,097

The total capital lease liability is funded on an annual basis and included in NRC's annual budget. The
NRC's capital leases are for personal property consisting of reproduction equipment, which is installed in

                                                       15
                                                                                   PrincipalStatements

                             NOTES TO PRINCIPAL STATEMENTS
                                     September 30, 2000
various NRC facilities.    The leases are for 5 years and the interest rate paid was 4.75 percent. The

reproduction equipment is depreciated over 5 years using the straight-line method with no salvage value.

Operating Leases

    Future payments due:
                                    Fiscal Year                            Lease Payments
                                       2001                                 $ 20,099,771
                                       2002                                   19,406,694
                                       2003                                   19,364,621
                                       2004                                   19,457,404
                                       2005 and thereafter                   158,190,133
                    Total future lease payments                             $236,518,623

Operating leases consist of real property leases with GSA. The leases are for NRC's headquarters offices,
regional offices, and the Washington, DC, reading room. The GSA charges NRC lease rates which
approximate commercial rates for comparable space.

NOTE 9. UNEXPENDED APPROPRIATIONS

The unexpended appropriations consist of the following as of September 30, 2000:

    Unexpended appropriations:
         Unobligated                                                         $18,711,100
         Undelivered orders                                                   68,362,370
                                                                             $87,073470

Unexpended appropriations include: (I) unobligated appropriation balances and (2) undelivered orders,
which are amounts which have been obligated but not yet expended. The unobligated appropriations balance
does not include $3,054,083 in unfilled customer orders - unobligated as of September 30, 2000. The
undelivered orders balance does not include $2,886,418 in unfilled customer orders - obligated as of
September 30, 2000.

NOTE 10. CUMULATIVE RESULTS OF OPERATIONS

The cumulative results of operations as of September 30, 2000, consists of the following:

    Future funding requirements                                            $(35,377,560)
    Investment in property and equipment, net                                 41,853,364
    Contributions from foreign cooperative research agreements                 2,505,896
    Other                                                                         96,106
                                                                            $ 9,077,806

Future funding requirements represent the amount of future funding needed to pay the accrued unfunded
expenses as of September 30, 2000. These accruals are not funded from current or prior-year appropriations
and assessments, but rather should be funded from future appropriations and assessments. Accordingly,
future funding requirements have been recognized for the expenses that will be paid from future
appropriations.
                                                   16
                                                                                     PrincipalStatements

                             NOTES TO PRINCIPAL STATEMENTS
                                     September 30, 2000

NOTE 11. EXCHANGE REVENUES

Exchange revenues for the year ended September 30, 2000:

      Fees for licensing, inspection, and other services                      $457,944,314
      Revenue from reimbursable work                                             5,093,674
      Totals                                                                  $463,037.,988

NOTE 12. BUDGET FUNCTIONAL CLASSIFICATION

The gross cost and earned revenue by budget functional classification for NRC are as follows:

                                                           Gross             Earned               Net
Functional Classifications                                 Cost             Revenues              Cost

276 - Energy Information, Policy & Regulation        $506,936,643        $(462,494,646)        $44,441,997
                                                        3,791,761             (543,342)          3,248,419
150 - AID International Affairs
                                                              960                                      960
800 - GSA General Government
      Totals                                         $510,729,364        $(463,037,988)        $47,691,376


The transactions with intragovernmental entities were as follows:

                                                           Gross              Earned              Net
Functional Classifications                                  Cost             Revenues             Cost

276 - Energy Information, Policy & Regulation        $152,080,387         $(31,079,476)       $121,000,911
150 - AID International Affairs                         2,171,557                                2,171,557
      Totals                                         $154,251,944         $(31,079,476)       $123,172,468

NOTE 13. FINANCING SOURCES OTHER THAN EXCHANGE REVENUE

Appropriations Used

Appropriations used, a financing source, is recognized to the extent that appropriated funds have been
consumed less the amount collected from fees assessed for licensing, inspections, and other services. During
the year ended September 30,2000, $450,077,215 was collected from fees assessed for licensing, inspections,
and other services. At the end of the fiscal year, appropriations recognized are reduced by the amount of
assessed fees collected during the fiscal year to the extent of new budget authority for the year. Collections
which exceed the new budget authority are held to offset subsequent years' appropriations. Included in the
$450,077,215 of fees collected is $3,077,215 available to offset subsequent years' appropriations.




                                                      17
                                                                                    PrincipalStatements

                             NOTES TO PRINCIPAL STATEMENTS
                                     September 30, 2000

For the year ended September 30, 2000, $447,000,000 of FY 2000 collections were used to reduce the fiscal
year's appropriations recognized:

             Appropriated funds consumed                                     $ 484,064,861
             Less: Collection from fees assessed                             (447,000,000)
                                                                                37,064,861
            Amounts to offset subsequent years' appropriations                 (10,944,314)
                                                                              $ 26,120,547

Appropriations used includes $29,893,840 of available funds from prior years.

Non-exchange Revenue

Non-exchange revenue of $875,347, consisted of $632,038 received from civil penalties and $243,309 of
miscellaneous receipts. Miscellaneous receipts included interest on delinquent debt, late penalties, Freedom
of Information Act fees, and indemnity fees.

Imputed Financing

The imputed financing source of $16,032,598 represents the service costs related to NRC employees' post
employment benefits which are paid by the Office of Personnel Management and payments from the U.S.
Treasury Judgement Fund, as follows:

            Civil Service Retirement System                                   $ 9,173,094
            Federal Employee Health Benefit                                     6,807,220
            Federal Employee Group Life Insurance                                  44,784
            U. S. Treasury Judgement Fund                                            7,500
                                                                              $16,032,598

Transfers In/Out

NRC transferred-out to the U.S. Treasury $447,875,347 consisting of license fee collections of $447,000,000
and non-exchange revenue of $875,347 and received back as a transfer-in $447,000,000.

NOTE 14. PRIOR-PERIOD ADJUSTMENT

The prior-period adjustment of $1,312,847 consists of the net value of computer hardware components
received in FY 1999 by NRC but not capitalized as other assets, equipment not in use. The assets were placed
into operation during FY 2000. The impact ofthis adjustment is to increase property and equipment, net, and
cumulative results of operations as of September 30, 1999, by $1,312,847.




                                                     18
                                                                                  PrincipalStatements

                              NOTES TO PRINCIPAL STATEMENTS
                                      September 30, 2000

NOTE 15. SUMMARY OF BUDGETARY RESOURCES

The budgetary resources by major fund follows:
                                                                                All
Budgetary Resources:                           X0200           X0300          Other           Total
 Budget authority                          $464,975,231      $5,000,000     $2,000,000    $471,975,231
 Unobligated balances
   beginning of period                       25,224,977       1,191,076      3,477,787      29,893,840
 Spending authority from
   offsetting collections                     5,516,691                                      5,516,691
 Adjustments                                  8,094,616         283,920        146,388       8,524,924
                                           $503,811,515      $6,474,996     $5,624,175    $515,910,686
    Total Budgetary Resources

Status of Budgetary Resources:
  Obligations incurred                     $476,129,523      $5,577,236     $3,826,821    $485,533,580
  Unobligated balances - available           27,681,992         897,760      1,207,079      29,786,831
  Unobligated balances - not available                 0              0        590,275         590,275
                                           $503,811,515                     $5,624,175    $515,910,686
     Total Status of Budgetary Resources                     $6,474,996

Outlays:
 Obligations incurred                       476,129,523       5,577,236      3,826,821     485,533,580
 Less: Spending authority from
          offsetting collections
          and adjustments                    (13,698,307)      (283,920)      (146,388)     (14,128,615)
 Obligated balance, net beginning
     of period                               111,072,928      1,190,652      4,319,324     116,582,904
 Obligated balance transferred, net
 Less: Obligated balance, net
            end of period                   (98,927,140)     (1,063,981)    (4,053,378)   (104,044,499)
 Total Outlays                             $474,577,004      $5,419,987     $3,946,379    $483,943,370

The adjustments of $8,524,924 to budgetary resources above consist of recoveries to prior-year obligations
less $87,000 that was rescinded.




                                                    19
REQUIRED SUPPLEMENTARY INFORMATION
                             INTRAGOVERNMENTAL ASSETS

                                      Fund Balances
        Trading Partner               with Treasury             Accounts                Other
                                                                Receivable

Department of the Treasury                 $138,740,086

Commerce Department                                                                        $136,830

Interior Department                                                                          170,555

Navy Department                                                                              209,016

Department of Labor                                                                          267,480

General Services Administration                                                              325,687

Tennessee Valley Authority                                          $1,025,345

Department of Veterans Affairs                                          279,800

Department of Energy                                                    224,993

Other                                                                   344,255              114,992

Total                                      $138,740,086             $1,874,393          $1,224,560



                       INTRAGOVERNMENTAL LIABILITIES

                  Trading Partner               Accounts Payable              Other
         Department of Labor                                                 $ 1,520,707

         Department of the Treasury                                           46,775,321
         Office of Personnel Management                                          1,839,043

         General Services Administration                  $ 5,180,850

         Department of Energy                               4,747,330

         Other                                                662,377              22,394

         Total                                            $10,590,557        $50,157,465




                                               20
                          MANAGEMENT'S DISCUSSION AND ANALYSIS


The Management's Discussion and Analysis is designed to provide a high-level overview of the agency. It
consists of four sections: About the NRC which describes the agency's mission, organizational structure, and
regulatory responsibility; ProgramPerformance which discusses the agency's success in achieving its
strategic goals; FinancialPerformance which provides highlights of the NRC's financial position; and
Systems, Controls, and Legal Compliancewhich describes the agency's internal control environment and
contains the Chairman's reasonable assurance statement.

ABOUT THE NRC

The NRC was established as an independent regulatory agency of the Federal Government on January 19,
1975. It was created by the U.S. Congress to regulate various commercial and institutional uses of nuclear
energy. The agency succeeded the regulatory function of the Atomic Energy Commission, which had the
responsibility to both develop and regulate nuclear activities. Its purposes are defined by the Energy
Reorganization Act of 1974, as amended, along with the Atomic Energy Act of 1954, as amended, which
provide the foundation for regulating the Nation's civilian uses of nuclear materials.

Mission

The NRC's mission is to regulate the Nation's civilian use of byproduct, source, and special nuclear materials
to ensure adequate protection of the public health and safety, to promote the common defense and security,
and to protect the environment.

Organization

The NRC is headed by a Commission composed of five members, with one member designated by the
President to serve as Chairman. Each member is appointed by the President, by and with the advice and
consent of the Senate, and serves a term of 5 years. The Chairman serves as the principal executive officer
and official spokesman for the Commission. The Executive Director for Operations carries out the program
policies and decisions made by the Commission.

The agency's mission is carried out with a staff of approximately 2,800 and a budget of approximately $470
million, most of which is recovered through fees charged to NRC licensees. The agency's budget has been
declining since FY 1993. The FY 2000 budget reflects an overall reduction of 13 percent in funding and 16
percent in staffing compared to FY 1993.

The NRC executes its mission at its headquarters offices in Rockville, Maryland, and four regional locations
in King of Prussia, Pennsylvania; Atlanta, Georgia; Lisle, Illinois; and Arlington, Texas. The NRC also has
resident inspector offices at each commercial nuclear power plant. The NRC organization chart is located
at the end of this section.

Regulatory Responsibility

Under its responsibility to protect the public health and safety, the NRC has three principal regulatory
functions: (1) establish standards and regulations, (2) issue licenses for nuclear facilities and users of nuclear
materials, and (3) inspect facilities and users of nuclear materials to ensure compliance with the requirements.
These regulatory functions relate to both nuclear power plants and to other uses of nuclear materials, such
as nuclear medicine programs at hospitals, academic activities at educational institutions, research work, and
industrial applications for gauges and testing equipment.
                                                        21
                         MANAGEMENT'S DISCUSSION AND ANALYSIS


PROGRAM PERFORMANCE
The Government Performance and Results Act requires Federal agencies to provide an annual performance
plan to Congress that sets goals with measurable target levels of performance beginning with FY 1999.
Within 6 months of the end of that fiscal year, agencies must submit actual program performance data to the
Congress. The NRC established four strategic goals consistent with its mission. To assess the results in
achieving the strategic goals, the NRC identified FY 2000 strategic goal measures and subsequently modified
them in the Budget Estimates and Performance Plan - FY 2001 (NUREG-1 100, February 2000).


                                                            The NRC has organized its strategic goals into four
               STRATEGIC GOALS                              strategic arenas: Nuclear Reactor Safety, Nuclear
  9   Prevent radiation-related deaths and illnesses        Materials Safety, Nuclear Waste Safety, and
      in the use of civilian nuclear reactors.              International Nuclear Safety Support.

  *   Prevent radiation-related deaths and illnesses        The NRC has also established performance goals to
      in the use of source, byproduct, and special          support the strategic goals for each of the four
      nuclear material.                                     strategic arenas. These performance goals and
                                                            their associated performance measures forFY 2000
  *   Prevent significant adverse impacts from              will be reported in the NRC's FY 2000
      radioactive waste.                                    Performance and Accountability Report.

  0   Support U.S. interests in the safe and secure
      use of nuclear materials and in nuclear




Nuclear ReactorSafety

Strategic Goal:      Prevent radiation-relateddeaths and illnesses, promote the common defense and
                     security, and protect the environment in the use of civilian nuclearreactors.

In FY 2000, the NRC met its nuclear reactor safety strategic goal measures and had:

        (1)       No nuclear reactor accidents.
        (2)       No deaths resulting from acute radiation exposures from nuclear reactors.
        (3)       No events at nuclear reactors resulting in significant radiation exposures.
        (4)       No radiological sabotages at nuclear reactors.
        (5)       No releases of radioactive material from nuclear reactors causing an adverse impact on the
                  environment.

NuclearMaterialsSafety

Strategic Goal:      Prevent radiation-relateddeaths and illnesses, promote the common defense and
                     security, andprotect the environment in the use of source, byproduct, and special
                     nuclearmaterial.




                                                       22
                         MANAGEMENT'S DISCUSSION AND ANALYSIS


In FY 2000, the NRC met its nuclear materials safety strategic goal measures and had:

       (1)        No deaths resulting from acute radiation exposures from civilian uses of source, byproduct,
                  or special nuclear materials or deaths from other hazardous materials used or produced from
                  license material.
       (2)        No events that result in significant radiation or hazardous material exposures from the loss
                  or use of source, byproduct, and special nuclear materials.
       (3)        No events resulting in releases of radioactive material from the civilian use of source,
                  byproduct, or special nuclear materials that cause an adverse impact on the environment.
       (4)        No losses, thefts, or diversion of formula quantities of strategic special nuclear material;
                  radiological sabotages; or unauthorized enrichment of special nuclear material regulated by
                  the NRC.
       (5)        No unauthorized disclosures or compromises of classified information causing damage to
                  national security.

Nuclear Waste Safety

Strategic Goal:     Preventsignificant adverse impactsfrom radioactivewaste to the currentandfuture
                    public health and safety and the environment,andpromote the common defense and
                    security.

In FY 2000, the NRC met its nuclear waste safety strategic goal measures and had:

       (1)        No deaths resulting from acute radiation exposures from radioactive waste.
       (2)        No events resulting in significant radiation exposures.
       (3)        No releases of radioactive waste causing an adverse impact on the environment.
       (4)        No losses, thefts, diversions, or radiological sabotages of special nuclear material or
                  radioactive waste.

InternationalNuclear Safety Support

Strategic Goal:      Support U.S. interests in the safe and secure use of nuclear materialsand in nuclear
                     nonproliferation.

In FY 2000, the NRC met its international nuclear safety support strategic goal measures and had:

        (1)       Fulfilled 100 percent of the significant obligations over which NRC has regulatory authority
                  arising from statutes, treaties, conventions, and Agreements for Cooperation.
        (2)       No significant proliferation incidents attributable to some failure of the NRC.
        (3)       No significant safety or safeguards events that resulted from NRC's failure to implement its
                  international commitments.

FINANCIAL PERFORMANCE
Financial Statement Highlights

The NRC prepared its financial statements in accordance with the accounting standards codified in the
Statements of Federal Financial Accounting Standards and Office of Management and Budget Bulletin No.
97-0 1, Form and Content of Agency FinancialStatements, as amended. The NRC has prepared audited
                                                      23
                        MANAGEMENT'S DISCUSSION AND ANALYSIS


financial statements since FY 1992 and has received an unqualified opinion on its principal statements for
the seventh consecutive year. Preparation of financial statements is an important step towards improved
financial management and providing accurate and reliable information to be used in assessing performance
and allocating resources.

For FY 2000, the auditors identified two material internal control weaknesses concerning implementation of
Statement of Federal Financial Accounting Standards Number 4 (SFFAS 4), ManagerialCost Accounting
Concepts and Standards for the Federal Government, and management control over license fee
development. The auditors also identified two new reportable conditions concerning debt collection. In
addition, 11 reportable conditions were carried over from FY 1999. Seven of the reportable conditions from
previous years remained open at the end of FY 2000. They included the implementation of managerial cost
accounting, the agency's progress in developing financial systems to aggregate payroll transactions to the
strategic arena level, management controls over fee development, business continuity plan for the core
accounting system, the financial statement preparation process, controls over the verification of small entity
status for fee assessment, and development of the 10 CFR Part 170 hourly rate. The agency has taken
corrective action on these audit findings and expects to fully implement corrective action during FY 2001.

Financial Condition of NRC

As of September 30, 2000, the financial condition of the NRC is sound with respect to having sufficient funds
to meet program needs and sufficient control of these funds to ensure that NRC obligations do not exceed
budget authority. NRC's total assets were $225.9 million. Total liabilities as of September 30, 2000, were
$129.8 million, which included $94.2 million of liabilities covered by budgetary resources and $35.6 million
not covered by budgetary resources. Liabilities not covered by budgetary resources are primarily from
unfunded liabilities associated with accrued annual leave and future workers' compensation. Total exchange
revenue for the year ended September 30, 2000, was $463.0 million which was derived from licensing fees
and fees for inspections and other services, assessed in accordance with Title 10 Code of Federal Regulations
(CFR) Parts 170 and 171. The net cost of NRC operations totaled $47.7 million for the year ended
September 30, 2000. The majority of these costs were in the Nuclear Materials Safety and Nuclear Waste
Safety arenas.

The net cost of operations is expected to increase in the future as a result of recent changes to the fee
collection requirement, as contained in the Energy and Water Development Appropriations Act, 2001. The
requirement to recover approximately 100 percent of the agency's new budget authority by assessing fees,
less amounts appropriated for the Nuclear Waste Fund and the General Fund, will be reduced to 98 percent
in FY 2001 and continue to decrease 2 percent per year until FY 2005, for a total reduction of 10 percent.
This change is expected to result in an increase in NRC's net cost of about $9 million for FY 2001.

Sources of Funds

The NRC has two appropriations, and funds for both are available until expended. One appropriation is for
agency salaries and expenses, and the other is for the Office of the Inspector General. The NRC's total new
FY 2000 budget authority was $469.9 million including $464.9 million for the Salaries and Expenses
appropriation and $5.0 million for the Inspector General appropriation. Additionally, available to obligate
in FY 2000 were $31.1 million from prior-year appropriations, $3.6 million from prior-year reimbursable
work, $5.7 million from current and prior-year transfer of funds from other Federal agencies, and $5.6 million
for new reimbursable work to be performed for others. The sum of all funds available to obligate for
FY 2000 was $515.9 million.


                                                     24
                        MANAGEMENT'S DISCUSSION AND ANALYSIS


Consistent with the requirements of the Omnibus Budget Reconciliation Act of 1990, the NRC collected and
offset approximately 100 percent of its new budget authority, excluding $19.1 million derived from the
Nuclear Waste Fund, $3.8 million from the General Fund for regulatory review and other assistance provided
to the Department of Energy and other Federal agencies, and other offsetting receipts. (See Figure 1.)



                                                            Figure 1
                                                        Sources of Funds

                                                      New Budget Authority $469.9




                                        Reac-trFees
                                          $398 6M                                      J Nucear M4215a35
                                                                                                       Fees


                                                                                                Fund
                                                                                                   M-,],1
                                                                                             $3.8M




Uses of Funds by Function

As previously stated, the total budgetary resources available for use by the NRC in FY 2000 was $515.9
million. Of that amount, the NRC incurred obligations of $485.5 million, with approximately 58 percent used
for salaries and benefits. The remaining 42 percent was used to obtain technical assistance for the NRC's
principal regulatory programs, to conduct confirmatory safety research, to cover operating expenses, (e.g.,
building rentals, transportation, printing, security services, supplies, office automation, and training), staff
travel, and reimbursable work. (See Figure 2.) Of the $30.4 million in budget authority that was not
obligated in FY 2000, $0.6 million of transferred funds expired at the end of the fiscal year, $4.3 million was
for reimbursable work, and $25.5 million in budget authority is available to fund critical needs in FY 2001.
(See Figure 2.)

                                                      Figure 2
                                             Uses of Funds by Function
                                                        Total Obligations $485.5

                                                                                    Travel
                                Salaries and Benefits                               S11.4M
                                      S282.OM




                                                                                     "ContractSupport
                                                                                         $182.2M

                                                          Reimbursable Work
                                                               $9.9M




                                                                   25
                        MANAGEMENT'S DISCUSSION AND ANALYSIS


Prompt Payment

The Prompt Payment Act requires Federal agencies to make timely payments to vendors for supplies and
services, to pay interest penalties when payments are made after the due date, and to take cash discounts
when they are economicallyjustified. For FY 2000, the NRC made 96 percent of its 8,237 payments subject
to the Prompt Payment Act on-time. This exceeds the goal established by the Office of Management and
Budget for Federal agencies to make 95 percent of payments subject to the act on-time and reflects the third
consecutive year NRC has achieved 96 percent. The amount of interest penalties incurred was just under
$6,400. In addition, the agency made over 99 percent of its vendor payments electronically. This exceeds
the Governmentwide goal of 69 percent.

Debt Collection

The Debt Collection Improvement Act of 1996 was enacted to enhance the ability of the Federal Government
to service and collect debts. The agency's goal is to maintain the delinquent debt owed to NRC at year-end
to less than one percent of its billings for that year. The NRC continues to meet its goal and has kept
delinquent debt at less than one percent for the past 5 years. Control over delinquent debt is accomplished
through a concerted debt management strategy. The strategy includes license revocations and referral to the
Department of the Treasury's Debt Management Services through a cross-servicing arrangement.

Delinquent debt at the end of FY 2000 was $1.5 million which is 40 percent less than the amount at the end
of FY 1999. This reduction was the result of implementing accounting policy changes pursuant to revised
guidance issued by the Department of the Treasury and the reduction in the number of licensees due to the
establishment of a new Agreement State.


SYSTEMS, CONTROLS, AND LEGAL COMPLIANCE

The Federal Managers' Financial Integrity Act of
1982, Integrity Act, mandates that agencies establish             INTEGRITY ACT STATEMENT
controls that reasonably ensure that: (i) obligations                      FY 2000
and costs comply with applicable law; (ii) assets are
safeguarded against waste, loss, unauthorized use, or        The U.S Nuclear Regulatory Commission evaluated
misappropriation; and (iii) revenues and                     its management controls and financial management
expenditures are properly recorded and accounted             systems for FY 2000, as required by the Federal
for. This act encompasses program, operational, and          Managers' Financial Integrity Act of 1982. On the
administrative areas as well as accounting and               basis of the NRC's comprehensive management
financial management. The act requires the                   control program, I am pleased to certify, with
Chairman to provide an assurance statement on the            reasonable assurance, that the agency is in
adequacy of management controls and conformance              compliance with the provisions of this act.
of financial systems with Governmentwide
standards.
                                                             Richard A. Meserve /s/
The Federal Financial Management Improvement                 Chairman
Act of 1996, Improvement Act, requires each agency           U.S. Nuclear Regulatory Commission
to implement and maintain systems that comply
substantially with: (i) Federal financial management
system requirements, (ii) applicable Federal
accounting standards, and (iii) the standard

                                                        26
                        MANAGEMENT'S DISCUSSION AND ANALYSIS


general ledger at the transaction level. The act requires the Chairman to determine whether the agency's
financial management systems comply with the Improvement Act and to develop remediation plans for
systems that do not comply.

NRC's Management Control Program

A committee of senior agency executives reviewed individual assurance statements prepared by NRC office
directors and regional administrators that identified weaknesses that warranted the attention of the executive
committee. This committee was comprised of senior executives from the following offices: Chief Financial
Officer, Chief Information Officer, and Executive Director of Operations, with the General Counsel and the
Inspector General as advisors. These statements were based on various sources including:

        *       Management knowledge gained from the daily operation of agency programs and reviews.
        *       Management reviews.
        *       Program evaluations.
        *       Audits of financial statements.
        *       Reviews of financial systems.
        *       Annual Performance plans.
        *       Inspector General and General Accounting Office reports.
        *       Reports and other information provided by the congressional committees ofjurisdiction.

NRC's ongoing management control program requires, among other things, that management control
deficiencies are integrated into offices' and regions' annual operating plans. The operating plan process has
provisions for periodic updates and receives the attention of an executive committee made up of the agency's
senior managers. The management control information in these plans, combined with the individual
assurance statements discussed previously, provide the framework for monitoring and improving the
agency's management controls on an ongoing basis and for advising the Chairman on whether there are any
management control deficiencies serious enough to report as material weaknesses or material
noncompliances.

The NRC evaluated its management control systems for the fiscal year ending September 30, 2000. This
evaluation provided reasonable assurance that the agency's management controls achieved their intended
objectives. As a result, it was concluded that NRC did not have any material weaknesses in its programmatic
or administrative activities.

However, the agency recognizes that incomplete implementation of managerial cost accounting (SFFAS 4)
continues to be a significant weakness which merits the close attention of senior management. Progress has
been made over the past year to implement managerial cost accounting. A cost accounting software package
was selected, purchased, and installed and is being configured to reflect how the agency initially plans to
report direct costs and allocate its indirect costs. Consistent with the remediation plan, the agency expects
to implement managerial cost accounting and achieve compliance with SFFAS 4 during FY 2001.

Actions have also been taken to strengthen the management controls over fee development. The license fee
rule development process has been documented, and an analysis of the fee model has been completed and
improvements made. The agency completed these corrective actions in November 2000.

Financial Management Systems

The NRC evaluated its financial management systems to determine whether the agency's systems comply
with Governmentwide standards (Integrity Act) and with applicable Federal requirements and accounting
                                                 27
                        MANAGEMENT'S DISCUSSION AND ANALYSIS

standards (Improvement Act). This evaluation disclosed that NRC's major financial management systems
are in compliance with the Integrity Act. The evaluation also disclosed that overall financial systems are in
compliance with the Improvement Act. NRC's financial management systems comply substantially with
Federal financial management systems requirements and the standard general ledger at the transaction level,
but did not comply substantially with applicable Federal standards due to the lack of implementation of
SFFAS 4, managerial cost accounting. As discussed previously, the agency is continuing to address the
implementation of SFFAS 4.

The NRC has five financial systems: the Federal Financial System (FFS), Capitalized Property PC System,
License Fee Bill Generator System, Allotment-Financial Plan System, and a Budget Formulation System.
The NRC also has a mixed system, the Payroll/Personnel System.

The FFS is the core accounting system that the NRC uses through an interagency agreement with the
Department of the Treasury (Treasury). This system is reviewed annually by Treasury's Financial
Management Service (FMS) for its client agencies that utilize the system. FMS performed a vulnerability
assessment that disclosed no material or nonmaterial weaknesses. Their limited review of FFS provided
reasonable assurance that FFS, as operated by FMS for NRC, is efficient and effective; contains necessary
controls; and conforms with the principles, standards, and related requirements prescribed by the Comptroller
General with one exception. The FMS has yet to test its business continuity plan for FFS and this exception
is considered a material nonconformance. FMS has delayed such testing because of higher priorities imposed
on its data center.

The FMS has also notified the agency that they will terminate cross-servicing core accounting services at the
end of FY 2002. During FY 2001, NRC will pursue acquiring core accounting services from another Federal
agency.

Biennial Review of User Fees

The Chief Financial Officers Act of 1990 requires agencies to biennially conduct a review of fees, royalties,
rents, and other charges imposed by agencies and make revisions, if necessary, to cover the program and
administrative costs incurred. During FY 1999 to FY 2000, the NRC reviewed each type of fee subject to
the biennial review of fees requirement. Each year, the hourly rates for licensing and inspection fees are
revised and the annual fees are adjusted to meet the fee collection requirements of the Omnibus Budget
Reconciliation Act of 1990. The most recent changes to the licensing, inspection, and annual fees are
described in the FederalRegister (65 FR 36946, June 12, 2000). The following fees and charges were also
revised to more appropriately recognize actual costs: fees for public use of the auditorium, administrative
charges imposed on delinquent debt (10 CFR 15.37(f)), fees for search and review time to respond to
Freedom of Information Act and Privacy Act requests, and licensing and inspection fees based on average
number of hours. Reviews of other types of fees concluded that fee revisions were not warranted at this time.

Management Decisions and Final Actions on 0IG Audit Recommendations

The agency has established and continues to maintain an excellent record in resolving and implementing open
audit recommendations presented in Office of the Inspector General (OIG) reports. Section 5(b) of the
Inspector General Act of 1978, as amended, requires the Chairman to report on management decisions and
final actions taken on OIG audit recommendations. Table 1 gives the dollar value of disallowed costs
determined through contract audits conducted by the Defense Contract Audit Agency (DCAA). "Questioned
Costs" are those costs that are questioned as to whether they are allowable. "Unsupported Costs" represent
costs challenged because of a lack of adequate supporting data. Because of the sensitivity of contractual
negotiations, details of these contract audits are not furnished as part of this report.
                                                      28
                       MANAGEMENT'S DISCUSSION AND ANALYSIS


                                           Table 1
      Management Report on Office of the Inspector General Audits with Disallowed Costs
                    For the Period October 1, 1999-September 30, 2000

                                                   Number of         Questioned       Unsupported
                  Category                        Audit Reports        Costs              Costs

 A. Audit reports with management                        0                 $0                $0
    decisions on which final action had
    not been taken at the beginning of
    this reporting period.

 B.   Audit reports on which management                  4             $113,797              $0
      decisions were made during this
      period.
                                                         4             $113,797              $0
 C. Audit reports on which final action
    was taken during this report period.                 4             $113,797              $0
    (i) Disallowed costs that were
         recovered by management
        through collection, offset,
         property in lieu of cash, or                    0                 $0                 $0
         otherwise.
    (ii) Disallowed costs that were
         written off by management.                      0                 $0                 $0

 D.   Reports for which no final action had
      been taken by the end of the
      reporting period.


As of September 30, 2000, no outstanding audits recommended that funds be put to better use.

ManagementDecisionsNot Implemented Within One Year

Management decisions were made before September 1999 for the OIG audit reports discussed in the
following paragraphs, but as of September 30, 2000, NRC had not taken final action on some of the issues
in the reports. The OIG did not recommend that funds be put to better use for any of these reports.

Review of NRC's Implementation of Inspection Manual Chapter 1245, "Training Requirements,"
November 4, 1994

The NRC has implemented the Training Administration module of the PeopleSoft Human Resources
Information System. The implementation was completed as part of Phase II of the Starfire project. The live
date for Training Administration was November 14, 2000. The Training Administration module combined
the information residing in three separate administrative systems: the Agency Training System (ATS), the
Technical Training Center registration system, and the Professional Development Center registration system.
The PeopleSoft Training Administration module is now the official training records system for the agency.
Course registration is now accomplished through the Training Administration module. All NRC offices now
have a designated training contact who has the ability to enter external training completion (Form 368
                                                   29
                         MANAGEMENT'S DISCUSSION AND ANALYSIS

training) into individual training records. These office individuals can also report on individual training
portfolios and monitor the enrollment of individual training sessions. In addition, each training contact has
full access to all of the public reports and queries developed for the Training Administration module.

As a result of implementing this new system and providing full access to appropriate individuals in each
office, the agency now has a training tracking system that meets management needs for producing reliable
information for overseeing inspector training. As stated in a previous update on this subject, an upgrade to
the enhanced features of the PeopleSoft Training Administration module along with additional PeopleSoft
implementation will provide desktop access to all staff members, through an employee self-service function,
enabling them to review their own training portfolios and check their course session enrollment status.

Make NRC Management DirectivesAvailable on the NRC Web Site

The OIG recommended that the Office of Chief Information Officer (OCIO) make agency management
directives and corresponding handbooks available on the NRC's web site to facilitate easy search and
retrieval of pertinent guidance. In January 1999, the OCIO agreed to make all management directives and
corresponding handbooks available. In November 2000, the entire set of management directives and the
corresponding handbooks were placed on the web as web pages.

IndependentAuditors' Report and PrincipalStatementsfor the Year Ended September 30, 1998

The OIG recommended the Chief Financial Officer assess the immediate needs of NRC managers to receive
reliable and routine cost accounting information in light of performance and results mandates included in the
Government Performance and Results Act. Additionally, the Chief Financial Officer, in preparing a
remediation plan should develop a strategy, including milestones, to incorporate cost management standards
and concepts throughout the agency.

Progress has been made over the past year to implement managerial cost accounting. A cost accounting
software package was selected, purchased, and installed and is being configured to reflect how the agency
initially plans to report direct costs and allocate its indirect costs. Consistent with the remediation plan, the
agency expects to implement managerial cost accounting and achieve compliance with Governmentwide cost
accounting requirements during FY 2001.




                                                      30
                                                        NRC Organization Chart
                                                        At September 30, 2000



                                                            The Commission
      Commissioner            Commissioner                     Chairman                        C




                                               Office of                    Office of Public
Advisory Committee       Office of the       Congressional                       Affairs
 on Nuclear Waste     Inspector General         Affairs



      Advisory                                  Office of                      Office of

   Committee on                              Chief Financial               Chief Information
 Reactor Safeguards                              Officer                         Officer




                                                                                                   Deputy Executive Director
                                                                                                             for
                                                                                                     Management Services
                                                                                                              I


                                                                                                          Office of
                                                                                                       Human Resources




                                                                                                                     Legend
                                                                                                                              Direct Reporting Relationship
                                                                                                                    - - - General Supervision
                                                                                                                    ......... Advisory Body



                                                                      31
REPORTS ON INTERNAL CONTROL AND COMPLIANCE
         WITH LAWS AND REGULATIONS
  WI/ R. NAVARRO                                                               2831 Camino Del Rio South, Suite 306
   I& ASSOCIATES, INC.                                                                   San Diego, California 92108
   /   CERTIFIED PUBLIC ACCOUNTANTS                                                                   (619) 298-8193



                      REPORT ON MANAGEMENT'S ASSERTION ABOUT THE
                           EFFECTIVENESS OF INTERNAL CONTROL


Chairman Richard A. Meserve
U.S. NUCLEAR REGULATORY COMMISSION
Rockville, Maryland

We have examined management's assertion that U.S. Nuclear Regulatory Commission's (NRC) systems of
accounting and internal control in place as of September 30, 2000 is in compliance with the internal control
objectives defined in Office of Management and Budget (OMB) BulletinNo. 01-02, Audit Requirementsfor
FederalFinancialStatements. The Bulletin states that transactions are properly recorded, processed, and
summarized to enable the preparation of the principal statements in accordance with Federal accounting
standards, and safeguarding of assets against loss from unauthorized acquisition, use or disposal.

Our examination was made in accordance with the standards established by the American Institute of
Certified Public Accountants; standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and, OMB Bulletin No. 01-02.
Accordingly, we considered NRC's internal control over financial reporting by obtaining an understanding
of the agency's internal controls, determined whether these internal controls had been placed in operation,
assessed control risk, and performed tests of controls and other procedures as we considered necessary in the
circumstances. We believe that our examination provides a reasonable basis for our opinion. Our
examination was of the internal controls in place as of September 30, 2000.

Because of inherent limitations in internal control, errors or fraud may occur and not be detected. Also,
projections of any evaluation of the internal control over financial reporting to future periods are subject to
the risk that the internal control may become inadequate due to changes in conditions, or that the degree of
compliance with the policies and procedures may deteriorate.

In our opinion, management's assertion that NRC's accounting systems and the internal controls in place as
of September 30, 2000 is in compliance with the internal control objectives defined in OMB Bulletin No. 01
02 is not fairly stated. Management did not identify the lack of managerial cost accounting, and the lack of
management controls for fee development as material weaknesses.

Our consideration of management's assertion on internal control over financial reporting would not
necessarily disclose all matters in the internal control over financial reporting that might be reportable
conditions. Under standards issued by the American Institute of Certified Public Accountants, reportable
conditions are matters coming to our attention relating to significant deficiencies in the design or operation
of the internal controls that, in our judgment, could adversely affect the agency's ability to record, process,
summarize, and report financial data consistent with the assertions made by management in the financial
statements. Material weaknesses are reportable conditions in which the design or operation of one or more
of the internal control components does not reduce to a relatively low level the risk that misstatements in
amounts that would be material in relation to the financial statements being audited may occur and not be
detected within a timely period by employees in the normal course of performing their assigned functions.

We noted certain matters, discussed in the following paragraphs, involving the internal control and its
operation that we consider to be reportable conditions. ManagerialCost Accounting and Management
Controls Over Fee Development are considered material weaknesses. ManagerialCost Accounting is also
considered a substantial non-compliance with Federal Financial Management Improvement Act (FFMIA).

Current Year Comments

A. Managerial Cost Accounting

As originally reported for fiscal year (FY) 1998 (Report No. OIG/98A-09) and continuing through FY 2000,
the NRC has not implemented Statement of Federal Financial Accounting Standards (SFFAS) No. 4,
ManagerialCost Accounting Concepts and Standards, to assure that, "Managerial cost accounting... be a
fundamental part of the financial management system and, to the extent practicable, ... [to] be integrated with
other parts of the system." [Implementation of the standards would provide], "... the costs of... activities on
a regular basis for management information purposes."

Agency management responded to the FY 1998 condition by preparing a remediation plan and outlining the
milestones for an integrated resource management system. The remediation plan has undergone revision to
reflect the tasks planned and accomplished. An updated plan was issued December 27, 2000. However,
management has made minimal progress in developing interim techniques or processes to provide routine and
reliable cost information for managers as of the end of FY 2000. Although managerial cost accounting has
been a requirement since FY 1998, NRC projects implementation of cost management during FY 2001.

The strategy adopted by management places significant emphasis on changing the culture and practices of
the agency. This strategy overlooks the immediate benefits of providing managerial cost accounting
information to agency managers in order to support their responsibilities for planning, controlling costs,
decision-making, and evaluating performance. Implementation of cost accounting techniques and practices
is essential to the agency managers' ability to support compliance with the Government Performance and
Results Act.

The Joint Financial Management Improvement Program (JFMIP), Managerial Cost Accounting System
Requirements (FFMSR-8), states, "Some agencies may find they have existing software, such as the core
financial systems software and reporting and data analysis tools, that can support many of their needs for cost
accounting capabilities, especially when cost accounting is first being introduced. Not until an agency has
some experience with cost accounting and has determined that they truly have a need for more sophisticated
capabilities and what those capabilities are, should agency pursue additional software. Since agencies may
use cost finding techniques and cost studies as long as they comply with cost accounting standards
implementation of a cost accounting system is not necessarily a prerequisite with SFFAS Number 4."

This condition continues to be reported as a material weakness and an FFMIA substantial non-compliance.

Recommendation

1. The Chief Financial Officer (CFO) should strive to meet the revised milestones in the remediation plan
   to provide cost accounting information to agency managers. Cost accounting information should
   enhance the agency's ability to evaluate the cost of outputs and outcomes realized. Because the
   remediation milestones have seen some delays due to the staging of complementary software solutions,
   the CFO should develop interim cost management techniques based on the needs of agency managers.

CFO's Comments:

"We agree with the importance of striving to meet the revised milestones contained in the remediation plan,
dated December 27, 2000. However, due to issues associated with implementing the PeopleSoft payroll, time
and labor, and human resources modules, we will not be able to meet the milestones contained in that plan.
We are currently evaluating these issues and plan to issue a revised remediation plan in April 2001. In
                                                      33
addition, we will review the potential of creating more meaningful cost reports to better meet the needs of
managers on an interim basis. We expect to complete this review by March 2001 ....."

Auditors' Position:

We commend the CFO for continually monitoring and the accuracy of the remediation plan to address this
issue. The implementation strategy that is in place is complex due to the solutions being pursued, however,
gradually introducing cost management tools to agency managers will expedite and enhance the
implementation of this plan. During the next audit we will evaluate the agency's actions described in the
plan.

B.   Program Cost Accounting

OMB Bulletin 97-01, Form and Content of Agency Financial Statements, as amended, requires the
preparation of a Statement of Net Cost as part of the principal statements. This statement is designed to
provide the accounting for the net cost of programs as defined by the agency in its budget, strategic, and
annual plans. In FY 2000, approximately $282 million (55%) of the agency costs included in the Statement
of Net Cost represents salaries and benefits.

In the prior year, we reported (Report No. OIG/99A-12) that NRC did not have a general ledger process
supporting the preparation of the Statement ofNet Cost. This condition continues to exist. However, during
the current year, the OCFO implemented an interim data collection method, a time allocation tool, improving
the collection of labor data. Because the agency's financial management processes are in transition while the
agency develops a fully integrated accounting system, interim processes are being implemented to support
the accumulation of labor costs by program.

Our assessment of the implementation of the time allocation tool used to collect labor data identified
conditions requiring attention in order to increase the reliability of the information provided. These
conditions include:

"* For most employees, time allocations were pre-set to default to a specific strategic arena instead of
     actively requiring an allocation of time;

"* Routine reporting of time allocation data was not provided to accountable managers;

"* Policies for reviewing time allocation reports were not implemented;

"* Continuous monitoring of the information gathered by the system was not conducted;

"* One-time payments, bonus, leave, etc., were allocated based on payment date, rather than to the period
     where the benefit was earned; and

"* Inaccurate data base files supporting the hours and salaries reflected on the Statement of Net Cost were
     initially provided.

These conditions, although essential to the improvement of the reliability of information supporting the
Statement of Net Cost, are indicative of first year implementation issues.




                                                    34
JFMIP SR-99-4, Core FinancialSystem Requirements, states, "The financial management systems in the
Federal government must be designed to support the vision articulated by the government's financial
management community....This includes the ability to...

"* facilitate the preparation of financial statements, and other financial reports in accordance with Federal
     accounting and reporting standards; ...[and]

"* provide a complete audit trail..."


OMB Circular A- 127, Section 5, Definitions, states, "...'financial system' means an information system,
comprised of one or more applications, ...used for any of the following:

"*   collecting, processing, maintaining, transmitting, and reporting data about financial events;
"*   supporting financial planning or budgeting activities;
"*   accumulating and reporting cost information; or
"*   supporting the preparation of financial statements.

Although OCFO initiatives addressed this condition, classified as a substantial non-compliance with FFMIA
in the prior year, additional emphasis is necessary.

Recommendation

2.   The Chief Financial Officer should continue to refine the methodology implemented and should provide
     for continuous monitoring of the agency's use of the system. While the agency implements an integrated
     financial management solution, routine reporting, policy guidance, and continued on-site assessments
     should aid in fully implementing this interim time allocation tool.

CFO's Comments:

"We agree the Pay/Pers time and labor reporting process implemented during FY 2000 requires refinement.
By March 15, 2001, we will provide managers with reports that compare RITS and Pay/Pers data and that
provides time allocation data as ofthe first quarter FY 2001. This information will be provided on a monthly
basis thereafter, beginning in April 2001. We will also monitor agency reporting by strategic arena and
reconcile time and labor hours to hours paid in the payroll system as part of our current monthly
reconciliation of payroll data."

Auditors' Position:

The proposed information described by the CFO will begin to formalize the internal control review process
for time distribution. During a subsequent audit we will evaluate the timeliness and reliability of the process
described.

C.   Documentation of Debt Collection Activities

The License Fee and Accounts Receivable Branch (LFARB) is responsible for collecting NRC receivables
generated in the billing of NRC services to the regulated community. Policies provide for the collection
actions at specified time periods. The collection actions are normally suspended during the period LFARB
reviews billings that are disputed by licensees.

The OCFO Accounting Policy Manual, Chapter IV, Accounts Receivable and Debt Collection, paragraph
G.2.(a)(2), states, "The NRC Debt Collection Strategy given in the appendix to this chapter provides an
organized plan of action for collection of debt and gives the actions that shall ordinarily be taken following
                                                      35
the issuance of the first demand letter [considered to be an invoice]. The specific [collection] actions and the
times at which they occur are required unless the collection of the debt is in jeopardy or another course of
action is strongly indicated by the information available..."

                  Collection Actions                             Chapter IV Appendix Benchmarks
  Second Demand Letter                                     At 31 days
 Third Demand Letter                                       At 61 days
 Telephone Call of Personal Interview                      Within 61 - 90 days
 License Suspension or Revocation                          Within 6 months

LFARB creates a separate collection file for each billing that is outstanding for over 90 days. These files are
assigned to specific license fee analysts for processing. Documents relating to uncollected billings are to be
retained in the collection files. We noted that the collection files were generally in poor condition and were
incomplete. The results of tests indicated that required collection actions were either not performed, or were
not documented for a large portion of the billings.

The sampled items showed no documented evidence that:

"*   Second demand letters were sent to 6 of 33 (18%) licensees with billings outstanding for more than 31
     days;

"* LFARB analysts contacted 14 of 38 (37%) licensees with billings outstanding for more than 61 days;
     or that,
"* Orders were issued to suspend or revoke the licenses of 5 of the 8 (63%) licensees with billings
     outstanding for more than six months.

Recommendation

3.   The Chief Financial Officer should direct the License Fee and Accounts Receivable Branch to create
     complete collection files for tracking all billings not collected within 61 days. Collection files should
     include a method for tracking the required collection actions and listing relevant collection
     documentation. The CFO should reiterate to LFARB the need to follow existing policies and procedures.

CFO's Comments:

"While we agree with the recommendation, we do not believe this condition rises to the level of a reportable
condition. The evidence presented in the report indicates debt collection files were not complete. However,
in the absence of trend data that suggests deterioration in this area or interviews that suggest staff are not
knowledgeable or adequately trained to perform this function, we believe it would be more appropriate to
include this in a management letter.

To remedy this condition, revised desk procedures for processing delinquent debt were developed in
November 2000. The procedures, among other things, require a file checklist be placed in every collection
file folder. The branch chief held meetings with all staff responsible for processing delinquent debt and
training was given in the use of the check list for recording milestones in the debt collection process follow
up. Management will monitor this process for efficiencies and improvement and will ensure that complete
and accurate records of delinquent debt files are maintained. We believe corrective actions have been
completed."



                                                      36
Auditors' Position:

The actions described by the CFO appear to address the points that are at issue in the observation. The
comment, however, continues to be identified as a reportable condition since the agency overlooked the
design of a well defined and documented internal control process to insure that debt management activities
were carried out in accordance with management's intent. The remedy described by the CFO herein more
closely complies with the standards prescribed by the GAO's InternalControlsforFederalAgencies.During
a subsequent audit we will evaluate the actions implemented.

Status of Prior Years' Comments

A.   Management Controls over Fee Development

During FY 1999, an audit was conducted by the Office of the Inspector General (OIG) that identified
management control issues relating to the development of fees (Report No. OIG/99A-0 1).

OMB Circular A-123, Management Accountability and Control, states, "...management controls are the
organization, policies, and procedures used by agencies to reasonably ensure that: (i) programs achieve their
intended results; (ii) resources are used consistent with agency mission; (iii) programs and resources are
protected from waste, fraud, and mismanagement; (iv) laws and regulations are followed; and (v) reliable and
timely information is obtained, maintained, reported, and used for decision making."

The OIG identified several management control weaknesses, including: (1) lack of formal procedures and
(2) the lack of quality control over the fee calculations. The report stated that there were no formally
documented procedures for calculating fees and preparing the fee rule.

In October 1999, the agency engaged a contractor to conduct an analysis of the fee development
methodology. In their report dated, March 27, 2000, the contractor concluded that although NRC's current
hourly rate calculation is not as precise as it could be, it is acceptable under SFFAS No. 4, ManagerialCost
Accounting Concepts and Standards. The report also provided suggestions that would improve the future
feasibility of the current process. Quality controls were not addressed specifically in the report.

In October 2000, NRC issued new license fee policies and procedures. The corrective actions will not be
completed until FY 2001. This condition is considered resolved. Closure will be dependent on the
assessment of quality control procedures over fee development in a subsequent audit.

B.   Financial Statement Preparation

The FY 1998 management letter included an observation on the Financial Statement Preparation Process, and
in FY 1999 this issue was elevated to a reportable condition. The observation stated, in part, "Instead ofNRC
initiating actions to assess financial reporting requirements and develop solutions, the agency relied on the
audit process to identify the problem and outline the solution." The comment further stated, "...the financial
reporting process would benefit by (1) improving communication between policy review and implementation
functions, (2) preparing and documenting the analysis of policy decisions, (3) producing interim financial
statements ... to identify reporting issues early, and (4) ensuring the accuracy of data that supports the
financial statement by improving the internal review and assessment of systems, reports, and data that support
the principal statements."

In the current year, the NRC improved its financial management compilation practices as evidenced by
delivering the compiled statements by the agreed-upon milestone. However, essential documentation such
as the cost allocation worksheets to support the Statement of Net Costs could not be provided in a timely
manner. Additionally, the quality assurance process that would ensure the completeness and accuracy of
supporting data base information was not fully in place. Although we consider this condition resolved,
closure will depend on the agency's continued improvement.

                                                     37
C. Management Controls Over Small Entity Certifications

As reported in the prior year, NRC did not have a process to adequately determine the eligibility of entities
submitting for fee adjustments as small entities. Under 10 CFR 171.16, materials licensees can qualify as
small entities and pay reduced annual fees depending on their size. Businesses, nonprofit agencies,
educational institutions or local governments may qualify as small entities depending on either average annual
gross receipts, number of employees or population jurisdiction. Size standards are based on guidelines
prescribed by the Small Business Administration. Licensees qualify for reduced fees by completing and
submitting a Certificationof Small Entity Status For The PurposesofAnnual Fees Imposed Under 10 CFR
Part171 (NRC Form 526) with the applicable fee.

Licensees self-certify as small entities and corroborating evidence is not required. The CFO performs a
cursory review of NRC Forms 526 received, primarily for completeness. A few certifications are denied each
year, based on information available to licensee fee analysts. During FY 1999, the agency granted 1,180 fee
reductions totaling $6.4 million or 83%, from the originally billed materials fees of $7.7 million. In FY 2000,
the agency granted fee reductions of approximately $5.8 million.

The CFO responded in the prior year that they planned to explore the recommendation provided and that they
would advise us of their results by June 1, 2000. An initial corrective plan was provided to the Office of
Inspector General on August 2, 2000, however, it was later withdrawn pending some additional refinements.
 As of the end of our field work, a corrective action plan had not adopted. Therefore, this condition remains
unresolved.

D. Segregation of Duties - PAY/PERS

The Standardsfor Internal Controls in the FederalGovernment issued by the Comptroller General state
"...(k)ey duties and responsibilities in authorizing, processing, recording, and reviewing transactions should
be separated among individuals."

NRC uses PAY/PERS to maintain personnel information and to process payroll. Our FY 1999 review ofuser
access identified three Division of Accounting and Finance (DAF) employees, including the team leader in
charge of payroll operations, who held a Level 3 profile. Level 3 allows for unrestricted access to the system,
including the security tables. The payroll operations team leader had incompatible functions. The team
leader's functions were not properly segregated because the individual could commit both errors and
irregularities and conceal them in the course of discharging the normal duties of the position.

In the current year, review of access profiles showed that the OCFO changed the payroll operations team
leader's profile to Level 2, eliminating the incompatibility. This condition is closed.

E.   Controls Over Authorized Users - PAY/PERS

Part II of OMB Circular A-123, Management Accountability and Control, states "Specific management
control standards are: ... access to resources and records should be limited to authorized individuals, and
accountability for the custody and use of resources should be assigned and maintained."

NRC uses PAY/PERS to maintain personnel information and to process payroll. As reported in the prior
year, the system, because of its integrated payroll and personnel functions, has two designated lead system
administrators: a DAF system administrator who is responsible for maintaining and controlling access to the
payroll functions; and, an Office of Human Resources individual who is responsible for maintaining and
controlling access to the personnel functions.

Because OCFO has developed and uses a management report identifying user access sessions in PAY/PERS,
this condition is closed.

                                                     38
F.   Management Controls Over General Services Administration (GSA) Credits

The OCFO controls the payments made through drawdowns on the On-Line Payment and Collection System
(OPAC). NRC has a process for the approval of invoices which is identified in the agency's desk procedures.
The process provides for project managers to receive Approval Form ForInteragencyBilling - Non-DOE
(Form 441) listing OPAC charges for review and approval. In FY 1999, the standard practice for transactions
of this nature were not followed by the Financial Operations Branch (FOB), DAF, for GSA rental charge
credits.

As ofFebruary 2000, DAF established an effective process to track and monitor GSA credits. An amendment
was also made to the accounting manual to reflect the revised agency policy. This comment is closed.

G. Revenue from Reimbursable Agreements

During FY 1998, the NRC did not record revenue from reimbursable agreements on a consistent basis. Partial
corrective action was taken in FY 1999, however, the agency was awaiting issuance of the revised policy to
close this condition. During the current year, the policy was issued. Therefore this condition is closed.

Assurance on Performance Measures

With respect to internal controls related to performance measures, the OIG performed those procedures and
will report this issue separately. Our procedures were not designed to provide assurance over reported
performance measures, and, accordingly, we do not provide an opinion on such information.



This report is intended solely for the information and use of the management of the U.S. Nuclear Regulatory
Commission, OMB, Congress, and the NRC Office of the Inspector General and is not intended to be and
should not be used by anyone other than these specified parties.



February 8, 2001




                                                    39
 W/    R. NAVARRO                                                               2831 Camino Del Rio South, Suite 306
      & ASSOCIATES, INC.                                                                  San Diego, California 92108
      CERTIFIED PUBLIC ACCOUNTANTS                                                                    (619) 298-8193



                     INDEPENDENT AUDITORS' REPORT ON COMPLIANCE
                             WITH LAWS AND REGULATIONS


Chairman Richard A. Meserve
U.S. NUCLEAR REGULATORY COMMISSION
Rockville, Maryland

We have audited the principal statements of the U. S. Nuclear Regulatory Commission (NRC) as of and for
the year ended September 30, 2000, and have issued-our report thereon dated February 8, 2001. We
conducted our audit in accordance with auditing standards generally accepted in the United States of America;
the standards applicable to financial audits contained in Government Auditing Standards, issued by the
Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin No. 01-02,
Audit Requirementsfor FederalFinancialStatements.

The management of the U. S. Nuclear Regulatory Commission is responsible for complying with laws and
regulations applicable to the agency. As part of obtaining reasonable assurance about whether the agency's
financial statements are free of material misstatement, we performed tests of its compliance with certain
provisions of laws and regulations, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts, and certain other laws and regulations specified in OMB
Bulletin No. 01-02, including the requirements of the Federal Financial Management Improvement Act
(FFMIA) of 1996. Our objective was not to issue an opinion on compliance with laws and regulations and,
accordingly, we do not express such and opinion.

The results of our tests of compliance with the laws and regulations described in the preceding paragraph
exclusive of FFMIA, disclosed an instance of noncompliance with the following laws and regulations that
are required to be reported under Government Auditing Standards and OMB Bulletin No. 0 1-02, which is
described below.

Current Year Comment

Compliance with Debt Collection Improvement Act

The Debt Collection Improvement Act of 1996 states at 31 USC 3711 (g)(1) that "If a nontax debt or claim
owed to the United States has been delinquent for a period of 180 days - (A) the head of the executive,
judicial, or legislative agency that administers the program that gave rise to the debt or claim shall transfer
the debt or claim to the Secretary of the Treasury;..."

The License Fee Accounts Receivable Branch (LFARB) is responsible for collecting NRC receivables.
LFARB tracks the aging of the receivables using the monthly Aged Billings Report (NCI 10). Uncollected
receivables that are over 180 days delinquent are required to be transferred to the U.S. Treasury.

The results of our tests of accounts receivable, which were outstanding for more than 30 days, identified 28
of 45 (62%) instances where accounts receivables were delinquent for more than 180 days. An analysis of
the instances determined that 10 were eligible for transfer to the U.S. Treasury as required by the Act. Five
of these receivables were transferred late, ranging from 35 to 196 days and averaging 90 days late.
Additionally, one account receivable was not referred to the U.S. Treasury but was collected 91 days after
the date of its eligibility for referral.
NRC policy provides for some exceptions to the Act. For example, accounts receivables that are being
disputed by licensees or that are owed by licensees filing for bankruptcy are not transferred to the
U.S. Treasury because these debts are not legally enforceable. Additionally, accounts receivables owed by
licensees with installment payment plans are not transferred unless they default on their payment plans.
LFARB did not use a tracking system to monitor compliance with the Act. Additionally, LFARB personnel

did not always employ uniform practices for determining if debts should be transferred to the U.S. Treasury.

Recommendation

4.   The Chief Financial Officer should ensure that all non-federal licensee debt over 180 days delinquent
     is referred timely to the U.S. Treasury. The exceptions to that practice would be for billings that are
     disputed by the licensees or owed by licensees that have filed for bankruptcy or been referred to the
     Department of Justice.

CFO's Comments:

"A monthly process was implemented in November 2000 for the team leader to review delinquent debt from
aged accounts receivable reports and ensure eligible debt over 180 days is referred to the Treasury. We
believe corrective actions have been completed."

Auditors' Position:

The process described in the CFO's response adequately addresses the recommendation. During a subsequent
audit we will evaluate the implementation, reliability and effectiveness of the process.

Status of Prior Year Comment

Part 170 Hourly Rates

As previously reported in fiscal years (FY) 1998 and 1999, the Omnibus Budget Reconciliation Act (OBRA)
of 1990 requires the NRC to recover approximately 100% of its budget authority by assessing fees.
Accordingly, NRC assesses two types of fees to its licensees and applicants. One type, specified in 10 CFR
Part 171, consists of annual fees assessed to power reactors, materials and other licensees. The other type,
specified in 10 CFR Part 170 and authorized by the Independent Offices Appropriation Act (IOAA) of 1952,
is assessed for specific licensing actions, inspections and other services provided to NRC's licensees and
applicants.

Each year, the Office of the Chief Financial Officer (OCFO) computes the hourly rates used to charge for the
time incurred by NRC personnel in providing Part 170 services. The rates are based on budgetary data and
are used to price individually identifiable Part 170 services.

The FY 1998 rates were not developed in accordance with applicable laws and regulations because they were
not based on the full cost of providing Part 170 services. For example, the calculations did not include certain
contract support costs of approximately $70 million, net of contract support costs directly billable to licensees
and applicants. During the review in FY 1998, the OCFO excluded contract support costs, $70 million,
primarily consisted of research projects. The $70 million represented approximately 15% of the fiscal year
1998 NRC appropriation of $472.8 million.

The contract support costs were excluded because, based on the OBRA conference agreement, the Chief
Financial Officer (CFO) classified these costs as "generic activities"that benefit licensees generally. Thus,
NRC recovered these costs through the Part 171 annual fees.


                                                       41
In response to the condition reported in the prior year, the Office of the Inspector General (OIG) performed
an audit and issued report (OIG/99A-0 1). Subsequent to the issuance of the FY 1999 financial statement
report (Report No. OIG/99A- 12) the agency provided a report intended to address the issues identified in this
observation. However, the review and assessment of that report, indicates that the underlying methodology,
objective, and conclusion reached did not sufficiently address this condition. Furthermore, the report did not
provide for a solution to be implemented in the current year. We do, however, understand that the agency
is looking to the future implementation of cost accounting to assist them fully address this condition. Planned
actions to be taken by the agency have resolved this condition. Closure is dependent on subsequent audit
follow-up.

FFMIA - Status of Prior Year Comments

Under FFMIA, we are required to report whether the agency's financial management systems substantially
comply with the Federal financial management systems requirements, Federal accounting standards, and the
United States Government Standard General Ledger at the transaction level. To meet this requirement, we
performed tests of compliance using the implementation guidance for FFMIA included in Appendix D of
OMB Bulletin No. 01-02. The results of our tests provided us the basis to update the status of prior year
instances.

A.   Managerial Cost Accounting

Refer to the Report on Management'sAssertion About the Effectiveness of Internal Control, Current Year
Comment A - ManagerialCostAccountingfor a detaileddiscussion of the condition and recommendation.
This condition continues to be consideredfor FY 2000 a material weakness and a Federal Financial
Management Improvement Act substantialnon-compliance.

B.   Program Cost Accounting

We reported in the prior year the agency's lack of a general ledger data at the transaction level for program
cost accounting supporting the Statement of Net Costs. Although the solution implemented by the agency
is not an integral component of the general ledger system, the new process improves the discipline of the
information collection to support the Statement of Net Cost. This condition is no longer classified as a
FFMIA issue for the current year.

Refer to the Report on Management'sAssertion About the Effectiveness of Internal Control, Current Year
Comment B - Program Cost Accountingfor a detaileddiscussion of the condition and recommendation.

C.   Business Continuity

In prior years, we reported conditions resulting from our assessment of NRC's management control program
relating to the agency's business continuity practices for major financial management systems. At the end
of FY 1999, the issues identified with the core general ledger - Federal Financial System (FFS) operated by
Treasury's Financial Management Service (FMS) remained an unresolved condition.

In the current year, FMS announced that it would no longer support the FFS system used by the agency.
Therefore NRC is in the process of identifying an alternative provider of such services. The initial actions
planned by the agency indicate that it will transfer to a new provider. We consider this condition resolved
and closure will be dependent on the agency migrating from FMS.




                                                     42
Consistency of Other Information

NRC's overview of program performance goals and results, and other supplemental financial and manage
ment information contain a wide range of data, some of which is not directly related to the principal
statements. We do not express an opinion on this information. We have, however, compared this information
for consistency with the principal statements and discussed the measurement and presentation methods with
NRC management. Based on this limited effort, we found no material inconsistencies with the principal
statements or noncompliance with OMB guidance.

Objectives, Scope and Methodology

NRC management is responsible for (1) preparing the principal statements in conformity with the basis of
accounting described in Note I to the Notes to Principal Statements, (2) establishing, maintaining, and
assessing internal controls to provide reasonable assurance that FMFIA's broad control objectives are met,
and (3) complying with applicable laws and regulations including the requirements referred to in FFMIA.

We are responsible for expressing an opinion on whether (1) the principal statements are free of material
misstatement and presented fairly, in all material respects, in conformity with generally accepted accounting
principles, and (2) for obtaining reasonable assurance about whether management's assertion about the
effectiveness of internal control is fairly stated, in all material respects, based upon criteria established by
FMFIA and OMB Circular A-123, Management Accountability and Control. As of the date of our report,
NRC management had completed its evaluation of financial management controls.

We are also responsible for testing compliance with selected provisions of laws and regulations, and for
performing limited procedures with respect to certain other information in the principal statements. In order
to fulfill these responsibilities, we:

"* examined, on a test basis, evidence supporting the amounts and disclosures made in the principal
     statements;

"* assessed the accounting principles used and significant estimates made by management;

"* evaluated the overall presentation of the principal statements;

"* obtained an understanding of internal controls related to safeguarding of assets, compliance with laws
     and regulations including execution of transactions in accordance with budget authority and financial
     reporting, in the principal statements;

"* assessed control risk and tested relevant internal controls over safeguarding of assets, compliance, and
     financial reporting, and evaluated management's assertion about the effectiveness of internal control;

"    tested compliance with selected provisions of the following laws and regulations: Anti-Deficiency Act
     (Title 31 U.S.C.), National Defense Appropriation Act (PL 101-510), Omnibus Budget Reconciliation
     Act of 1990 (PL 101-508), Debt Collection Act of 1982 (PL 97-365), Prompt Pay Act (PL 97-177), Civil
     Service Retirement Act of 1930, Civil Service Reform Act (PL 97-454), Federal Managers? Financial
     Integrity Act (PL 97-255), Chief Financial Officers' Act (PL 101-576), Budget and Accounting Act,
     Federal Financial Management Improvement Act (PL 104-208); and,

"* reviewed compliance and reported in accordance with FFMIA whether the agency's financial
     management systems substantially comply with the Federal financial management system requirements,
     applicable accounting standards and the U.S. Standard General Ledger at the transaction level.

We did not evaluate all internal controls relevant to operating objectives as broadly as defined in FMFIA,
such as those controls for preparing statistical reports and those for ensuring efficient and effective operations.
                                                         43
We limited our internal control tests to those controls necessary to achieve the objectives described in our
opinion on management's assertion about the effectiveness of internal controls. We performed our work in
accordance with auditing standards generally accepted in the United States of America, GovernmentAuditing
Standards and OMB Bulletin No. 01-02, Audit Requirementsfor FederalFinancialStatements.

Agency Comments

The CFO responded to the Inspector General on our draft report and addressed the recommendations noted
in the report. Based on our review of the CFO's comments, we are satisfied that the actions described meet
the intent of our recommendations. The CFO's comments are appended to this report in their entirety.



This report is intended solely for the information and use of the management of the U.S. Nuclear Regulatory
Commission, OMB, Congress and the NRC Office of the Inspector General and is not intended to be and
should not be used by anyone other than these specified parties.




February 8, 2001




                                                   44
         APPENDIX
       COMMENTS OF
THE CHIEF FINANCIAL OFFICER
                                   UNITED STATES
                         NUCLEAR REGULATORY COMMISSION
                                    WASHINGTON. D.C. 205501



                                       February 16, 2001

MEMORANDUM TO: Stephen D. Dlngbaum
               Assistant Inspector General for Audits

FROM:                   Jesse L Funches
                        Chief Financial Officr

SUBJECT:                DRAFT AUDIT REPORT - AUDIT OF THE NUCLEAR REGULATORY
                        COMMISSION'S FISCAL YEAR 2000 FINANCIAL STATEMENTS


I have reviewed the draft audit report of the Nuclear Regulatory Commission's FY 2000
Financial Statements, dated February 5, 2001. Overall, I agree with the report's
recommendations. Our response to the recommendations is as follows.

Recommendation 1: The Chief Financial Officer (CFO) should strive to meet the revised
milestones in the remediation plan to provide cost accounting information to agency managers.
Cost accounting information should enhance the agency's ability to evaluate the cost of outputs
and outcomes realized. Because the remediation milestones have seen some delays due to
the staging of complementary software solutions, the CFO should develop interim cost
management techniques based on the needs of managers.

Response: We agree with the importance of striving to meet the revised milestones contained
in the remediation plan, dated December 27, 2000. However, due to issues associated with
implementing the PeopleSoft payroll, time and labor, and human resources modules, we will not
be able to meet the milestones contained in that plan. We are currently evaluating these issues
and plan to issue a revised remediation plan in April 2001. In addition, we will review the
potential of creating more meaningful cost reports to better meet the needs of managers on an
interim basis. We expect to complete this review by March 2001. Also, we suggest you insert
the words "continue to" after the word Ushould" in the last sentence of the recommendation.

Recommendation 2: The CFO should continue to refine the methodology implemented and
should provide for continuous monitoring of the agency's use of the system. While the agency
implements an integrated financial management solution, routine reporting, policy guidance,
and continued on-site assessments should aid in fully implementing this interim time allocation
tool.

Response: We agree the Pay/Pers time and labor reporting process implemented during
FY 2000 requires refinement. By March 15, 2001, we will provide managers with reports that
compare RITS and Pay/Pers data and that provides time allocation data as of the first quarter
FY 2001. This information will be provided on a monthly basis thereafter, beginning in
April 2001. We will also monitor agency reporting by strategic arena and reconcile time and
labor hours to hours paid in the payroll system as part of our current monthly reconciliation of
payroll data.
                                                  2


Recommendation 3: The CFO should direct the Ucense Fee and Accounts Receivable
Branch (LFARB) to create complete collection files for tracking all billings not collected within 61
days. Collection files should include a method for tracking the required collection actions and
listing relevant collection documentation. The CFO should reiterate to LFARB the need to
follow existing policies and procedures.

Response: While we agree with the recommendation, we do not believe this condition rises to
the level of a reportable condition. The evidence presented in the report indicates debt
collection files were not complete. However, in the absence of trend data that suggests
deterioration in this area or interviews that suggest staff are not knowledgeable or adequately
trained to perform this function, we believe it would be more appropriate to include this in a
management letter.

To remedy this condition, revised desk procedures for processing delinquent debt were
developed in November 2000. The procedures, among other things, require a file checklist be
placed in every collection file folder. The branch chief held meetings with all staff responsible
for processing delinquent debt and training was given in the use of the check list for recording
milestones in the debt collection process follow-up. Management will monitor this process for
efficiencies and improvement and will ensure that complete and accurate records of delinquent
debt files are maintained. We believe corrective actions have been completed.

Recommendation 4: The CFO should ensure that all non-Federal licensee debt over 180 days
delinquent is referred timely to the U.S. Treasury. The exceptions to that-practice would be for
billings that are disputed by the licensees or owed by licensees that have filed for bankruptcy.

Response: A monthly process was implemented in November 2000 for the team leader to
review delinquent debt from aged accounts receivable reports and ensure eligible debt over 180
days is referred to the Treasury. We believe corrective actions have been completed.

We suggest this recommendation be modified to include two additional exceptions for referring
delinquent debt over 180 days to the U.S. Treasury: (1) debt referred to the Department of
Justice, and (2) debt under litigation.

The following comments address a prior-year recommendation and a report finding.

Management Controls Over Small Entity Certifications - Our current process for reviewing
small entity certifications uses information provided by Dun & Bradstreet to make our initial
comparison of the information provided by the licensee. For certifications submitted by
hospitals and non-profit educational institutions, we use the American Hospital Association
Guide and the Directory of Postsecondary Institutions, respectively, to identify irregularities with
their certification forms. We also perform searches for company information on the internet.
When we identify information which does not agree with the information the licensee has
provided on their small entity certification, we initiate contact and request they provide sufficient
corroborating evidence to support their claim. If the licensee cannot provide this information,
we deny their small entity status.
                                                3


In response to the recommendation, we plan to develop an information collection package to
seek Office of Management and Budget (OMB) approval, under the Paperwork Reduction Act
of 1955 (44 U.S.C. Chapter 35), to request financial information from licensees. We expect to
have this package ready for submission to OMB by November 30, 2001. Once we obtain OMB
clearance, we will develop and implement a sampling technique to identify those small entity
reviews that we will conduct. We will establish the statistical sampling technique within 90 days
of receipt of final OMB clearance for the new information collection. The new information we
collect will consist of income tax returns, audited financial statements, and quarterly employer's
tax returns (Form 941).

Managerial Cost Accounting - Page 3, paragraph 1, of the draft report states that
"...management has not made progressin developing interim techniques .... We believe
progress was made during FY 2000 in developing interim techniques for assembling cost
information. During FY 2000, an interim time and labor reporting system was implemented to
capture labor cost by strategic arena and reports were provided to offices for their review. We
believe the report should be modified to reflect this progress.
